<html>
<title> - H.R. 40 AND THE PATH TO RESTORATIVE JUSTICE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                H.R. 40 AND THE PATH TO RESTORATIVE JUSTICE

=======================================================================

                                 HEARING

                               BEFORE THE

                          SUBCOMMITTEE ON THE
                 CONSTITUTION, CIVIL RIGHTS, AND CIVIL
                               LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2019

                               __________

                           Serial No. 116-27

                               __________

         Printed for the use of the Committee on the Judiciary
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


        Available http://judiciary.house.gov or www.govinfo.gov
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-178 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
       
        
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                              ----------                              

            SUBCOMMITTEE ON THE CONSTITUTION, CIVIL RIGHTS, 
                          AND CIVIL LIBERTIES

                     STEVE COHEN, Tennessee, Chair
JAMIE RASKIN, Maryland               MIKE JOHNSON, Louisiana,
ERIC SWALWELL, California              Ranking Member
MARY GAY SCANLON, Pennsylvania       LOUIE GOHMERT, Texas
MADELEINE DEAN, Pennsylvania         JIM JORDAN, Ohio
SYLVIA R. GARCIA, Texas              GUY RESCHENTHALER, Pennsylvania
VERONICA ESCOBAR, Texas              BEN CLINE, Virginia
SHEILA JACKSON LEE, Texas            KELLY ARMSTRONG, North Dakota

                       James Park, Chief Counsel
                     Paul Taylor, Minority Counsel
                            
                            C O N T E N T S

                              ----------                              

                             JUNE 19, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Steve Cohen, Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     1
The Honorable Mike Johnson, Ranking Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     4
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     7
The Honorable Sheila Jackson Lee, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     8

                               WITNESSES

Cory Booker, United States Senator
    Oral Testimony...............................................    21
    Prepared Testimony...........................................    24
Ta-Nehisi Coates, Distinguished Writer in Residence, Arthur L. 
  Carter Journalism Institute of New York University
    Oral Testimony...............................................    28
    Prepared Testimony...........................................    31
Danny Glover, Actor and Activist
    Oral Testimony...............................................    35
    Prepared Testimony...........................................    37
Katrina Browne, Documentarian, Traces of the Trade
    Oral Testimony...............................................    40
    Prepared Testimony...........................................    42
Coleman Hughes, Writer, Quilette
    Oral Testimony...............................................    49
    Prepared Testimony...........................................    51
Burgess Owens, Speaker and Writer
    Oral Testimony...............................................    53
    Prepared Testimony...........................................    55
The Right Reverend Eugene Taylor Sutton, Episcopal Bishop of 
  Maryland
    Oral Testimony...............................................    58
    Prepared Testimony...........................................    60
Dr. Julianne Malveaux, Economist and Political Commentator
    Oral Testimony...............................................    75
    Prepared Testimony...........................................    78
Professor Eric J. Miller, Loyola Law School, Loyola Marymount 
  University
    Oral Testimony...............................................    81
    Prepared Testimony...........................................    83

          LETTERS, STATEMENTS, ETC. SUBMITTED FOR THE HEARING

Item for the record submitted by the Honorable Sheila Jackson 
  Lee, Committee on the Judiciary................................    11
Item for the record submitted by the Honorable Steve Cohen, 
  Chairman, Subcommittee on the Constitution, Civil Rights, and 
  Civil Liberties, Committee on the Judiciary....................    16
Item for the record submitted by the Honorable Louie Gohmert, 
  Committee on the Judiciary.....................................   119

                                APPENDIX

Items for the record submitted by The Honorable Steve Cohen, 
  Chairman, Subcommittee on the Constitution, Civil Rights, and 
  Civil Liberties................................................   141

 
                            H.R. 40 AND THE 
                      PATH TO RESTORATIVE JUSTICE

                              ----------                              


                        WEDNESDAY, JUNE 19, 2019

                        House of Representatives

            Subcommittee on the Constitution, Civil Rights, 
                          and Civil Liberties

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Steve Cohen 
[chairman of the subcommittee] presiding.
    Present: Representatives Cohen, Nadler, Raskin, Jackson 
Lee, Swalwell, Scanlon, Dean, Garcia, Escobar, Johnson, 
Gohmert, Jordan, Reschenthaler, and Cline.
    Staff Present: David Greengrass, Senior Counsel; John Doty, 
Senior Advisor; Lisette Morton, Director, Policy, Planning, and 
Member Services; Madeline Strasser, Chief Clerk; Moh Sharma, 
Member Services and Outreach Advisor; Susan Jensen, 
Parliamentarian/Senior Counsel; Charlie Gayle, Oversight 
Counsel; James Park, Chief Counsel; Keenan Keller, Senior 
Counsel; Will Emmons, Professional Staff Member; Paul Taylor, 
Minority Counsel; and Andrea Woodard, Minority Professional 
Staff Member.
    Mr. Cohen. The Committee on the Judiciary Subcommittee on 
the Constitution, Civil Rights, and Civil Liberties will come 
to order. I thank the officers for their help in clearing--
getting the door shut and getting folks in. Thank you so much.
    Without objection, the chair is authorized to declare a 
recess of the subcommittee at any time.
    I welcome everyone to today's hearing on H.R. 40 and the 
path to restorative justice. I will now recognize myself for an 
opening statement.
    Today is Juneteenth, a day that the commemorates the 
announcement of the abolition of slavery in Texas and more 
generally throughout the former confederacy on June 19, 1865. 
The news of the Emancipation Proclamation did not reach Texas 
for 2 years. And so it was not until 1865 that all enslaved 
people knew they were free, despite President Lincoln's 
emancipation announcement. Slavery was a crime against 
humanity, one which whose impacts we as a society continue to 
grapple with today. This year also marks the 400th anniversary 
of the first African slaves being brought to America.
    Slavery was our Nation's original sin. Our Constitution 
protected it, embodying it in various compromises that gave 
disproportionate power to slave States. For example, the three-
fifths clause counted a slave as three-fifths of a person for 
population counts. Of course, they weren't considered persons 
but property. But that, in turn, gave disproportionate 
representation to slave States in the House of Representatives.
    The Constitution also created the Electoral College, a 
system of electing the President of the United States that gave 
slave States another avenue to exercise disproportionate 
influence over national affairs. It is only fitting, then, that 
we should hold a hearing today on H.R. 40, the Commission to 
Study and Develop Reparation Proposals for African-Americans 
Act. My colleague, Representative Sheila Jackson Lee, who is in 
another hearing right--no, she is here with us. Thank you--a 
member of the subcommittee is the current lead sponsor of this 
legislation, and I am proud to be a cosponsor with her along 
with full committee chair Jerry Nadler, also a long time 
cosponsor of this bill.
    But the greatest credit for H.R. 40 belongs to two 
individuals. First and foremost, Mr. John Conyers. Mr. Conyers 
is a former colleague, a former chairman of the House Judiciary 
Committee, a great American, and a great leader, one of my 
mentors, one of the reasons that I have introduced this 
resolution with him since 2007. He introduced it first 30 years 
ago. The he reintroduced it every Congress thereafter until his 
retirement.
    The second individual most responsible for H.R. 40 is, 
sadly, but in reality, John Wilkes Booth. His assassination of 
President Abraham Lincoln led to Andrew Johnson becoming 
President. And President Johnson effectively rescinded the 
promise made by General William T. Sherman to former slaves 
that they would each be guaranteed 40 acres of land to make a 
living as a free person. A promise sometimes colloquially 
referred to as 40 acres and a mule. President Lincoln would 
have carried that out and had plans to do it. But because of 
that dastardly day and deed of April 12, 1865, it didn't occur. 
It was April 14, maybe.
    Anyway, H.R. 40 would create a commission to study the 
history of slavery in America, the role of the Federal and 
State governments in supporting slavery and racial 
discrimination. Other forms of discrimination against the 
descendants of slaves and the lingering consequences of slavery 
and Jim Crow on African Americans. The commission would also 
make recommendations as to appropriate ways to educate the 
American public about its findings and appropriate remedies in 
light of its findings.
    An honest reckoning with the Federal Government's role in 
protecting the institution of slavery has been a leading 
priority in my congressional career. In 2007, my freshman year, 
less than 2 months into that term, introduced H. Res. 194, an 
apology by the House of Representatives for its role in 
perpetuating both slavery and its noxious offspring, Jim Crow. 
The House ultimately passed this resolution by voice vote. And 
I, once again, thank Chairman Conyers for getting it a vote and 
getting it to the American people.
    As I noted in my resolution then, it was not just slavery 
itself that was wrong but also, quote, ``the visceral racism 
against persons of African descent upon which,'' unquote, 
American slavery depended, a racism that went on to become 
entrenched in the Nation's social fabric, an evil that we must 
continue to confront today.
    Can we get that door closed?
    Thank you, sir.
    My resolution emphasized that, while slavery was our 
Nation's original sin, the underlying sin of anti-Black racism 
did not end with the Civil War and the 13th Amendment. And 
Congress' inaction and acquiescence in the face of such racism 
was a big reason why. Racism became only further entrenched 
after slavery's end as reflected in societal attitudes and in 
Jim Crow laws, a system of State racial segregation laws that 
created separate and unequal societies for Whites and African 
Americans, one that was enforced through both official means 
and through lynchings, violence, intimidation, and 
disenfranchisement.
    And not until 100 years after the end of slavery did 
Congress, under pressure from Dr. Martin Luther King, John 
Lewis, and other great civil rights leaders in the civil rights 
movement finally carry out its duty to end Jim Crow by passing 
the Civil Rights Act of 1964; the Voting Rights Act of 1965, 
that still exists to some extent; and other core civil rights 
statutes that are fulfilling the Constitution's guarantees of 
equal protection for all.
    Today, our Nation continues to struggle with the legacy of 
the anti-Black racism that undergirded slavery and Jim Crow. We 
see this in statistics that paint a bleak picture. According to 
the Census Bureau, 21.2 percent of African Americans lived in 
poverty in 2017 compared to 8.7 percent of non-Hispanic Whites 
who live in poverty. That is over two times as many. The Census 
Bureau also reported in 2015 that the net worth of African 
American households was only about $13,000, which was less than 
10 percent, less than 10 percent of the nearly $140,000 net 
worth of non-Hispanic White households.
    Limited access to wealth, building resources and 
opportunities have led to this dark disparity. For instance, 
African Americans continue to face discrimination in the 
workplace. They have limited access to educational 
opportunities. According to the National Education Association, 
the high school education rate, graduation rate for African 
Americans was 67 percent compared to the nationwide average of 
81 percent. African Americans also continue to face racial 
segregation in housing and discrimination in the availability 
of quality healthcare service and most other major facets of 
life.
    Enacting H.R. 40 would be an important step in finding 
effective long-term solutions to these problems once they can 
trace their origins to our Nation's shameful history of slavery 
and anti-Black racism.
    As the distinguished professor Charles Ogletree of Harvard 
Law School once noted, the concept of reparations does not 
necessarily mean payments to individuals but rather a focus on 
the poorest of the poor, including efforts, quote, ``to address 
comprehensively the problems of those who have not 
substantially benefited from integration or affirmative 
action,'' unquote.
    I hope our hearing today can lead to fruitful conversations 
with the aim of achieving that goal. I thank our witnesses for 
being here today and look forward to their testimony.
    It is now my pleasure to recognize the ranking member of 
the subcommittee, the gentleman from Louisiana, Mr. Johnson, 
for his opening statement.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Let me start today by saying I maintain the utmost respect 
for my colleagues on the other side, and I know their beliefs 
on this issue are sincerely held.
    I want to thank all our witnesses for being here today, for 
your good-faith testimony, and your scholarship. We have all 
read through it in detail and made many notes. I will use my 
brief time here to just focus on an overview of what H.R. 40 is 
and why we are here.
    What we are going to discuss here today centers upon a 
regrettable and shameful portion of American history. Slavery 
in America and elsewhere was a horrific injustice, the 
perpetuation of which was antithetically opposed to the 
founding ideals expressed in our Declaration of Independence 
and the Constitution, including its Bill of Rights. Of course, 
the evil institution of slavery was legally abolished over 150 
years ago on December 6, 1865, with the ratification of the 
13th Amendment following the end of the tragic Civil War.
    The bill today, H.R. 40, would, quote, establish a 
commission to study and develop reparation proposals for 
African Americans. There are serious questions about this from 
all sides of the political spectrum, and they are honest and 
sincere questions that we want to address.
    But putting aside the injustice of monetary reparations 
from current taxpayers for the sins of a small subset of 
Americans from many generations ago--let me finish--the fair 
distribution of reparations would be nearly impossible once one 
considers the complexity of the American struggle to abolish 
slavery.
    Just consider this. Okay? There are tens of millions of 
today's non-African Americans who are descended from people who 
arrived in the country, of course, after slavery ended, and, 
therefore, they can't be held responsible for its legacy. More 
tens of millions are descended from people in both the North 
and South who didn't own slaves or who were descended from 
White people who fought in the Civil War on the Union side. 
Indeed, only a small percentage of the total American 
population were slave owners.
    For the aforementioned reasons and many others, such an 
approach has been widely unpopular, at least in our recent 
history. In the 1970s, civil rights organizations openly 
rejected the idea of reparations, which the NAACP's assistant 
director himself called, quote, ``an illogical diversionary and 
paltry way out for guilt-ridden Whites,'' unquote. Bayard 
Rustin, who organized the 1963 march on Washington and was one 
of Martin Luther King, Jr.'s closest advisers described the 
concept as, quote, ``a ridiculous idea,'' unquote. Barack Obama 
opposed reparations when he ran for President in 2008, and 
Hillary Clinton and Bernie Sanders did as well 8 years later.
    In addition to all this, here in the Judiciary Committee, 
we have an obligation to acknowledge that any monetary 
reparations that might be recommended by the commission created 
by H.R. 40 would almost certainly be unconstitutional on their 
face. The reason for that--listen. Wait a minute. The reason 
for that is a legal question. See, the legal question is the 
Federal Government can't constitutionally provide compensation 
today to a specific racial group because other members of that 
group, maybe several generations ago, were discriminated 
against and treated inhumanely. According to the U.S. Supreme 
Court, they would refer to that as an unconstitutional racial 
preference. See, the holding of the 1995 case, Richmond v. J.A. 
Croson Co. is that racial set-asides and other entitlements are 
only constitutionally permissible to remedy the present effects 
of the government's own widespread and recent discrimination. 
And the Federal Government is not allowed to provide race-based 
remedies that are, quote, ageless in their reaching of the pass 
and timeless in their ability to affect the future, unquote.
    Now, listen. I get it. I have read the scholarship. I know 
that some proponents of this legislation believe that the very 
discussion of reparations itself would be cathartic for our 
Nation. But we have to ask: If discussions can result in 
justice today, they certainly probably won't provide consensus. 
Instead, many people of good conscious believe they will 
distract from the many persistent causes of current racial 
disparities. They certainly exist. The despicable racism of 
America's past is part of that, as Mr. Coates, for example, has 
documented in a very compelling way. But so are other social 
and culture dynamics, which are themselves often negatively 
influenced by well-intended government policies.
    Let us be clear today: Racism violates the most fundamental 
principles of our great Nation, and it breaks the heart of our 
just and loving God. The central idea of America, what has been 
called as our foundational creed, is that we boldly declare the 
self-evident truths that all men created equal and that we are 
thus endowed by our creator with the same inalienable rights. 
Because each of us is made in the image of God, every single 
person has inestimable dignity and value. And our value is not 
related in any way to the color of our skin, what neighborhood 
we live in, our intelligence, or our abilities. Our value is 
inherent because it is given to us by our Creator.
    Many of my colleagues in this committee may not be aware 
that, in addition to our four children still at home, my wife, 
Kelly, and I actually have a much older son who happens to be 
African American. We took custody of Michael and made him part 
of our family 22 years ago when we were just newlyweds and 
Michael was just 14 and out on the streets and nowhere to go 
and on a very dangerous path. Michael is grown now. He has his 
own young family. He turns 36 years old next week. And he is a 
loving dad to four precious children of his own. God has been 
good to us, and he is a success story.
    I mention that today for one reason: I personally know the 
challenge that he has faced early in his life. I have walked 
with him through discrimination that he has had to endure over 
the years and the hurdles he sometimes faced. I know all this 
because I was with him.
    I asked Michael this weekend what he thinks about the idea 
of reparations. In a very thoughtful way, he explained his 
opposition. And it reminded me of something that Harvard 
history professor Stephan Thernstrom has previously testified 
in this very committee. And he said this quote as I am 
wrapping: Finally, I would urge the members of this 
subcommittee and the House of Representatives as a whole to 
ponder carefully the message that will be conveyed by the 
passage of this bill, H.R. 40. When you are behind in a foot 
race, the Reverend Martin Luther King, Jr., said in 1963, the 
only way to get ahead is to run faster than the man in front of 
you. So, when your White roommate says he is tired and goes to 
sleep, you stay up and burn the midnight oil. Dr. King's words 
reflect and important tradition of self-reliance, I am still 
quoting, that has had eloquent advocates in the African 
American community. Frederick Douglass, Booker T. Washington, 
W.E.B DuBois, and many others. All of them were saying in their 
in their different ways that African Americans were not 
powerless to better their lives until America owned up to its 
historical sins and offered them a generous financial 
settlement. The point is as important today as ever.
    That is what he wrote to this committee the last time--or 
one of the last times this was debated.
    Those great leaders encourage people to take control of and 
responsibility for their own lives because that gives every 
human being a greater sense of meaning, purpose, and 
satisfaction. And I know everybody in this room probably agrees 
with that idea, that principle.
    The premise of H.R. 40 and similar legislation, however 
willing they may be, risks communicating the opposite message. 
Would it propagate a world view that says external forces from 
a century and a half ago are directing the fate of Black 
Americans today? I mean, it is an honest question some people 
ask. I think people who wholeheartedly agree that our Nation is 
still in the process of healing from its reprehensible sins of 
the past can ask that question.
    There is no doubt that prejudice exists in our society, 
just as it has in every society since the fall of man in the 
garden. It exists in many communities and between many 
different races and types of people, sadly. And it is not 
reserved to just one race or class or ethnicity against 
another. We all know that. All of it is despicable. And every 
single instance of it is un-American.
    The honest question we have today, and that is what we are 
here to discuss, is, what do we do about it?
    All of us are here to listen to the thoughtful discussion 
today. I hope we will do it respectfully and with civility. We 
approach it in good faith. I promise you, every Member of 
Congress does. And I look forward to hearing from all of our 
witnesses.
    Thank you again. I yield back.
    Mr. Cohen. Thank you, Mr. Johnson.
    And I want to apologize. I might have--we are not supposed 
to, in the audience, respond or speak out or applaud or cheer. 
And I am probably wrong for having encouraged and allowed what 
I think was a proper reference for Mr. Conyers. But if you'd 
not allow my error to be compounded, try to keep cool.
    And I'd now like to recognize the chairman of the full 
committee, Mr. Nadler.
    Chairman Nadler. Thank you, Mr. Chairman, for calling this 
important hearing.
    This year, we mark the 400th anniversary of the first 
enslaved Africans arriving at the colony of Jamestown, 
Virginia. Today's hearing on H.R. 40 and the path to 
restorative justice gives us the opportunity to reflect on the 
shameful legacy of slavery and Jim Crow in this country and to 
examine how we can best move forward as a Nation. For nearly 
three decades, the former chairman of the Judiciary Committee, 
John Conyers of Michigan, introduced H.R. 40, which would 
establish a commission to study reparations proposals for 
African Americans. Our colleague, the gentlewoman from Texas, 
Ms. Jackson Lee, has taken up sponsorship of this legislation. 
And I am pleased to be a cosponsor as I was a cosponsor for 
many years when it was sponsored by Mr. Conyers.
    H.R. 40 is intended to begin an national conversation about 
how to confront the brutal mistreatment of African Americans 
during chattel slavery, Jim Crow segregation, and the enduring 
structure of racism that remains endemic to our society today. 
Even long after slavery was abolished, segregation and 
subjugation of African Americans was a defining part of this 
Nation's policies that shaped its values and its institutions.
    Today, we live with racial disparities in access to 
education, healthcare, housing, insurance, employment, and 
other social goods that are directly attributable to the 
damaging legacy of slavery and government-sponsored racial 
discrimination in the century following slavery's end. It is 
important to recognize that H.R. 40 makes no conclusion about 
how to properly atone for and to make recompense for the legacy 
of slavery and Jim Crow and their lingering consequences. 
Instead, it sets forth a process by which a diverse group of 
experts and stakeholders can study the complex issues involved 
and make recommendations to us.
    Most serious reparations models that have been proposed to 
date have focused on restorative community-based programs of 
employment, healthcare, housing, and education initiatives--
righting wrongs that cannot be fixed with checks alone.
    This moment of national reckoning comes at a time when our 
Nation must find constructive ways to confront a rising tide of 
racial and ethnic division. In April, this committee held a 
hearing on hate crimes and the rise of White nationalism in 
order to begin framing a Federal response. Hate crimes, white 
supremacy, the legacy of slavery, the legacy of Jim Crow all 
hold back our country's longstanding efforts to carry out what 
the Preamble to our Constitution says it is designed to do: to 
form a more perfect union.
    Reparations in the context of H.R. 40 are ultimately about 
respect and reconciliation and the hope that one day all 
Americans can walk together toward a more just future.
    I hope that the commission established by H.R. 40 can help 
us better comprehended our own history and bring us closer to 
racial understanding and advancement and justice. Today's 
hearing gives the subcommittee an important opportunity to hear 
from witnesses directly involved in shaping the discourse on 
healing our society and creating a path to restorative justice.
    I am pleased that we have such a distinguished panel of 
witnesses whose testimony will assist us greatly in 
understanding the scope of our inquiry. The discussion of 
reparations is a journey in which the road traveled may be 
almost as important as the exact destination. I am pleased that 
the subcommittee is beginning this process today, and I look 
forward to hearing from our witnesses.
    I yield back the balance of my time.
    Mr. Cohen. Thank you, Mr. Nadler.
    I would like to ask for unanimous consent that 
Representative Karen Bass be allowed to sit on the dais. She is 
a member of the committee but not the subcommittee.
    Without objection. Welcome, Ms. Bass.
    Mr. Green was just here, from Houston. I think he is coming 
back.
    And now I'd like to recognize the gentlelady from Texas for 
an opening statement, Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. And 
thank you to Chairman Nadler for an identity of H.R. 40 as a 
legitimate legislative action that should receive the full 
hearing of this committee, should, in fact, have a markup, go 
to the floor of the House, go to the United States Senate, and 
be signed by the President of the United States of America. 
This is an action of legislative commitment, and this is not a 
symbolic action, though I am gratified that we are having this 
hearing on Juneteenth. And for those of us who understand 
Juneteenth, 2 years after the proclamation--Emancipation 
Proclamation--there were those Africans who did not have 
freedom until 1865.
    So let me begin and indicate to my friends who have 
expressed a variety of assessments of H.R. 40 and say that 
America is a place it welcomes the diversity of thought. We 
even welcome the diversity of thought among the multicolored 
chocolate people that are African Americans, descendants of 
African slaves.
    Let me be very clear. It is only this group--even though 
they attempted to enslave Native Americans, it is only this 
group that can singularly--singularly--claim to have been 
slaves under the auspices, the institution, and leadership of 
the United States Government.
    And so H.R. 40 is in fact--is, in fact--the response of the 
United States of America long overdue. Slavery is original sin. 
Slavery has never received an apology. This commission will be 
compromised of members selected by the President of the United 
States, the Speaker of the House, the leader, and, of course, 
those who have been entrenched in this process.
    I spoke to John Conyers yesterday. I am honored to have 
been given the opportunity to lead this bill. John Conyers said 
to move on and to lead on and for us to take this forward. 
Thank you, Congressman John Conyers, for all that you have 
done.
    So let me share with you just a sense of what we face. Let 
me, first of all, say the number of Africans who died in Middle 
Passage, over 2 million. Number of enslaved who died during 
slavery first, second, and third generation, over 2.5 million. 
The transatlantic slave trade was the largest movement of 
people in history. Between 10 and 15 million Africans were 
forcibly transported across the Atlantic between 1500 and 1900. 
At least 2 million Africans, 10 to 15 percent, died in the 
infamous Middle Passage, as I said. Another 15 to 30 percent 
died during the march to or confinement along the coast. 
Altogether, for every hundred slaves who reached the New World, 
another 40 died in Africa or during the Middle Passage.
    Who has a history like that? Reparations and the idea of 
this commission should be welcomed by all Americans for we are 
not asking one American to give one payment. What we are saying 
is the only way that slavery ended was a governmental action of 
the 13th Amendment, governmental action, and Reconstruction 
failed after 12 years because it was imploded by governmental 
people. And after Reconstruction, a reign of terror that had 
never been seen, the hanging fruit, the lynching, the 
oppression of voting, the tearing away of land, and the amazing 
concept of the continuing de jure and de facto impact of 
slavery today.
    One million African Americans are incarcerated. That is a 
continuing impact. The Black employment rate is 6.6 percent, in 
spite of what has been said currently, more than double the 
national unemployment rate. Thirty-one percent of Black 
children live in poverty compared to 11 percent of White 
children. The national average is 18 percent, which suggests 
the percentage of Black children living in poverty is more than 
150 percent. Even in spite of the glorious overcoming of the 
talent that is part of our community, the scraping together of 
making sure our children received education, the putting 
together something out of nothing, we still have been impacted. 
And only 57 percent of Black students have access to full range 
of math and science classes today. Black children were 
vaccinated at rates lower than White children. Educational 
mobility has been limited. Black children represent 19 percent 
of the Nation's preschool population, yet 47 percent of those 
receiving more than one-out-of-school suspension. Black 
students are 2.3 times as likely to receive a referral to law 
enforcement. And we know the criminal justice system.
    So I conclude by these words: Black people in America are 
the descendants of Africans kidnapped and transported to the 
United States with the explicit complicity of the U.S. 
Government and every arm of the United States lawmaking and law 
enforcement infrastructure. The dehumanizing and atrocities of 
slavery were not isolated occurrences but mandated by Federal 
laws that were codified and enshrined in the Constitution. The 
role of the Federal Government in supporting the institution of 
slavery and subsequent discrimination directed against Blacks 
is an injustice that must be formally acknowledged and 
addressed.
    I am not here in anger or anguish. I am not in any way 
seeking to encourage hostilities. There are diverse opinions in 
this room, and I understand it, appreciate it, respect it, 
admire it, and love it. I am a product of my history. I am 
clearly a child that has walked this path. No, I did not pick 
cotton. But I will say that those who picked cotton created the 
very basic wealth of this Nation, for cotton was king. There 
was no other product.
    And so I ask my fellow colleagues that this is simply a 
constructive discussion that will lead to the practical 
responses.
    And if I might, Mr. Chairman, put this article in the 
record from The New York Times dated June 17th: Downtown Boom, 
Kansas City, Missouri, and just a few blocks away, devastation 
in the Black community. Two cities mostly in every--I ask 
unanimous consent, Mr. Chairman.
    Mr. Cohen. Without objection.
    [The information follows:]
      

                MS. JACKSON LEE FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Jackson Lee. Two cities. I also ask unanimous consent 
to put a statement of support from John Legend.
    Mr. Cohen. Without objection.
    Ms. Jackson Lee. Two cities, Mr. Chairman. And so let me 
just conclude by saying I hope that we come in peace. I know 
that we will hear from Senator Booker. I thank him, and I thank 
a number of others who have done this, including the heads of 
states, scholars, and activists in the Caribbean of playing a 
leading role in the global reparation movement. Many have been 
inspired by their work. I am delighted to see that professor 
Sir Hilary Beckles, vice chancellor of the University of West 
Indies and chairman of CARICOM Reparations Commission, has 
traveled all the way from Jamaica to be here. Thank you.
    I am particularly glad that we are coming together as 
brothers and sisters and passing out accolades. I want to 
certainly acknowledge NCOBRA for its steadfast leadership on 
this issue over the years and playing an instrumental in 
garnering sponsors of H.R. 40. We are also delighted that 
several members of the National African American Reparations 
Commission are present and want to thank them for working 
closely with the dean, Congressman John Conyers, in reforming 
H.R. 40 into a bill to study reparations. I am delighted to 
have reintroduced it with its modification and carry it forward 
to its next level. Thank you, Dr. Ron Daniels. We thank you for 
your leadership. Look forward to working with you and the 
National African American Reparations Commission as we educate 
the Nation on the importance of enacting H.R. 40. And I'd like 
to thank Reverend Al Sharpton, National Action Networks 
convention, because he asked 15 Presidential candidates what 
their position was, and we now have raised this to a national 
level.
    I just simply ask, why not, and why not now? If not all of 
us, then who? God bless us as we pursue the final justice for 
those who lived in slavery for 250 years in the United States 
of America. Please support H.R. 40 to its passage and signature 
by the President of the United States.
    Mr. Chairman, thank you for your generosity and kindness. I 
yield back.
    Mr. Cohen. Thank you, Ms. Lee.
    I would also like to ask that H. Res. 194, which was an 
apology for slavery that the House passed in the 110th 
Congress, a resolution apologizing for the enslavement and 
racial segregation of African Americans, be introduced for the 
record. Without objection, it should be done.
    Thank you.
    [The information follows:]
      

                   MR. COHEN FOR THE OFFICIAL RECORD

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Jackson Lee. Mr. Chairman.
    Mr. Cohen. And I would----
    Yes, ma'am.
    Ms. Jackson Lee. I just want to--you did acknowledge Ms. 
Bass. I just want to indicate that Ms. Bass is the chairwoman 
of the Congressional Black Caucus, and we are delighted that 
she is here in many roles. But we thank her for being here.
    Thank you, Mr. Chairman, for yielding.
    Mr. Cohen. H. Res. 194 was intended to start this dialogue 
and have a national dialogue. Unfortunately, the Senate did 
pass an apology, but Mr. Brownback included a sentence that 
said it would have no effect upon reparations. Despite Mr. 
Hilary Shelton and Wade Henderson's insistence that they should 
still pass together and we could have a dialogue, we passed 
different resolutions. But the Senate did pass an apology as 
well, and I think it was the 111th Congress. And that was 
because of the good work of Senator Tom Harkin.
    I would like to introduce into the record the testimony 
from William Darity, Jr., a professor of public policy on 
African American studies and economics at Duke University.
    Without objection, so done.
    And now I would like to come to the first panel. And we 
would like to welcome as our--to the first panel Senator Cory 
Booker.
    Senator Booker, your written statement will be entered into 
the record. I would ask you to summarize your statement to 5 
minutes.
    Senator Booker represents the State of New Jersey in the 
United States Senate. October 16, 2013, he won a special 
election, and on November 4, 2014, he was reelected to a full 
6-year term. He sits on the Senate Judiciary, Foreign 
Relations, Small Business, and Entrepreneurship, and the 
Environment and the Public Works Committees. He is the sponsor 
of S. 1083, the Senate companion to H.R. 40. He received his 
J.D. from Yale Law School and his undergraduate degree from 
Stanford University where they also play football. He was a 
Rhodes scholar at Oxford University earning an honor's degree 
in history.
    Senator Booker, welcome. And you are recognized for 5 
minutes.

STATEMENT OF THE HON. CORY BOOKER, A UNITED STATES SENATOR FROM 
                    THE STATE OF NEW JERSEY

    Senator Booker. Thank you very much.
    Chairman Nadler, chairman Cohen, Ranking Member Collins, 
and Ranking Member Johnson. I am glad that my written testimony 
will be put into the record.
    I just want to say that I am sitting before you, on many 
days that I come down to Washington, brokenhearted, and very 
angry. I live in a Black and Brown inner city community below 
the poverty line. I have lived and worked in communities like 
this all my adult life. And yesterday, hundreds of yards from 
where I live, there were seven Black men shot. And this is an 
everyday occurrence in America.
    I have the privilege of having leaders in my community who, 
over the decades, have given me strength. One of them was a 
woman that lived on the 5th floor of the projects, our tenant 
president, in some buildings in which I lived, whose son was 
murdered as well in our community. And she taught me that hope 
is the active conviction, that despair won't have the last 
word.
    But on a day like this, when I come back to Washington, 
D.C., seven people shot in my community, I wonder if other 
Senators had people shot like that in their neighborhood, 
whether that wouldn't be a lead national story. But I see the 
lives of low-income folks, lives of Black and Brown, folks. 
When people are shot and killed, the world seems to keep going 
on. And so I wonder about having the last word. What happens 
when the last would is no words, when it is silence? And I feel 
a sense of anger where we are in the United States of America 
where we have not had direct conversations about a lot of the 
root causes of the inequities and the pain and the hurt 
manifested in economic disparities, manifested in health 
disparities manifested in a criminal justice system that is, 
indeed, a form of new Jim Crow.
    And so we as a Nation have not yet truly acknowledged and 
grappled with racism and white supremacy that has tainted this 
country's founding and continues to persist in those deep 
racial disparities and equalities today. This is a very 
important hearing. It is historic. It is urgent.
    I look at communities like mine, and you could literally 
see how communities were designed to be segregated, designed 
based upon enforcing institutional racism and inequities. We 
know that racialized violence and terrorism has persisted from 
Reconstruction well into the 1950s, as my friend Bryan 
Stevenson's National Memorial for Peace and Justice shows. We 
have seen bombings of churches. We have seen massacres at 
places as recently as the Emanuel AME Church just 4 years ago.
    The stain of slavery was not just inked in bloodshed but in 
the overt state-sponsored policies that fueled white supremacy 
and racism and have disadvantaged African Americans 
economically for generations. Many of the bedrock policies, in 
fact, that ushered generations of Americans into the middle 
class were designed to exclude African Americans from the GI 
Bill to Social Security, intentionally designed to exclude 
Blacks as was school segregation, redlining, neighborhoods like 
the one in which I live which were, by design, walled off and 
disinvested in.
    And while these policies of the past, their damage and 
their reality has endured across generations and have created 
and led to so much of the racial wealth gaps in our country. 
Right now, we see cities like Boston, where the average White 
family has somewhere around $240,000 in wealth and the average 
Black family has about $8 in wealth. Health outcomes also vary 
wildly by race. Nationally, Black women are nearly four times 
as likely to die from pregnancy complications as White women, 
and in so many other areas. Our criminal justice system as 
well. No difference between Blacks and Whites for using drugs 
or selling drugs, but African Americans are about four times 
more likely to be arrested.
    These injustices do not just cause injustice for African 
Americans. It enforces a deep injustice in our Nation as a 
whole. It is a cancer on the soul of our country and hurts the 
whole body politic, making us all less wealthy, making us all 
less just, making us all fall far short from being who we say 
we are when we swear an oath that this will be a Nation of 
liberty and justice for all.
    I believe this is an urgent moment. And this bill, which I 
am now leading on the Senate side, is the beginning of an 
important process, not just to examine and study this history 
that has not been addressed, the silence that persists, but 
also to find practical ideas to address the enduring injustices 
in our Nation. The characterizations of such an effort that I 
hear from others is wrong and undermines our collective purpose 
and common ground. This idea that it is just about writing a 
check from one American to another falls far short of the 
importance of this conversation and what I believe we will 
truly talk about.
    I say that I am brokenhearted and angry right now. Decades 
of living in a community where you see how deeply unfair this 
Nation is still to so many people who struggle, who work hard, 
who do everything right but still find themselves 
disproportionately with lead in their water, superfunds in 
their neighborhood, schools that don't serve their genius, 
healthcare disparities that still affect their body and their 
well-being.
    We as a Nation must address this persistent inequalities, 
or we will never fully achieve the strength and the 
possibility. Hope is the active conviction that despair will 
not have the last word. I believe right now today we have a 
historic opportunity to break the silence, to speak to the ugly 
past, and talk constructively about how we will move this 
Nation forward.
    As the old African saying says, if you want to go fast, go 
alone. If you want to go far, go together. It is about time we 
find the common ground and the common purpose to deal with the 
ugly past and make sure that generations ahead do not have to 
continue to mark disparities but can truly talk about a Nation 
whereas our ancestors spoke from the good book where justice 
rolls down like water and righteousness like a mighty stream.
    Thank you, Mr. Chairman.
    [The statement of Senator Booker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you so much, Senator Booker.
    I appreciate your testimony. Very heartfelt and well 
received.
    I also want to just reiterate that Congressman Al Green was 
here, and he is a great champion.
    Now, I would like to call upon our second panel and thank 
Senator Booker for his sponsorship and his statement and 
wonderful words. Thank you, sir.
    The second panel, if they'd come forward. I guess we need 
chairs.
    There we go. The chair crowd is here. Good.
    Okay. Enough with the pictures.
    And if the Hope Hicks hearing--well, that is neither here 
nor there.
    We welcome our witnesses and thank them for participating 
in today's hearing. Your written statement will be entered into 
the record in its entirety, and I ask you to summarize your 
testimony 5 minutes. There is a lighting system. Green means 
you are on. Blue means you have got--yellow means you have got 
a minute left, and red, you are over, cut, finished.
    Before proceeding, I remind each witness that your written 
and oral statements made to the subcommittee in connection with 
this hearing are subject to penalties of perjury pursuant to 18 
U.S.C. 1001, which may result in the imposition of a fine or 
imprisonment of up to 5 years.
    Our first witness is Ta-Nehisi Coates. If I mispronounced 
it, I am sorry. Chris Hayes didn't teach me well when we first 
met. Mr. Coates is an author and distinguished writer in 
residence at New York University Carter Journalism Institute, a 
position he has held since 2017. He has held a variety of 
academic positions since 2010. Additionally, from 2008 to 2018, 
he was a national correspondent for The Atlantic where he wrote 
an extensive piece in June 2014 on the case for reparations. I 
believe he also addressed Rhodes College on that subject 
sometime in Memphis, Tennessee. He is the author of three 
books, numerous articles and blog posts.
    Mr. Coates, thank you for being here, and you are 
recognized for 5 minutes.

    STATEMENTS OF TA-NEHISI COATES, DISTINGUISHED WRITER IN 
 RESIDENCE, ARTHUR L. CARTER JOURNALISM INSTITUTE OF NEW YORK 
 UNIVERSITY; DANNY GLOVER, ACTOR AND ACTIVIST; KATRINA BROWNE, 
  DOCUMENTARIAN, TRACES OF THE TRADE; COLEMAN HUGHES, WRITER, 
QUILETTE; BURGESS OWENS, SPEAKER AND WRITER; THE RIGHT REVEREND 
 EUGENE TAYLOR SUTTON, EPISCOPAL BISHOP OF MARYLAND; JULIANNE 
  MALVEAUX, ECONOMIST AND POLITICAL COMMENTATOR; AND ERIC J. 
    MILLER, PROFESSOR, LOYOLA LAW SCHOOL, LOYOLA MARYMOUNT 
                           UNIVERSITY

                 STATEMENT OF TA-NEHISI COATES

    Mr. Coates. Yesterday, when asked about reparations, Senate 
majority leader Mitch McConnell offered a familiar reply: 
America should not be held liable for something that happened 
150 years ago since none of us currently alive are responsible. 
This rebuttal proffers a strange theory of governance, that 
American accounts are somehow bound by the lifetime of its 
generations.
    But well into this century, the United States was still 
paying our pensions to the heirs of Civil War soldiers. We 
honor treaties that date back some 200 years, despite no one 
being alive who signed those treaties. Many of us would love to 
be taxed for things we are solely and individually responsible 
for. But we are American citizens and thus bound to a 
collective enterprise that extends beyond our individual and 
personal reach.
    It would seem ridiculous to dispute invocations of the 
Founders or the Greatest Generation on the basis of a lack of 
membership in either group. We recognize our lineage as a 
generational trust, as inheritance. And the real dilemma posed 
by reparations is just that: a dilemma of inheritance. It is 
impossible to imagine America without the inheritance of 
slavery. As historian Ed Baptist has written, enslavement, 
quote, shaped every crucial aspect of the economy and politics 
of America so that by 1836, more than 600 million, or almost 
half of the economic activity in the United States, derived 
directly or indirectly from the cotton produced by a million-
odd slaves.
    By the time the enslaved were emancipated, they compromised 
the largest single asset in America: 3 billion in 1860 dollars, 
more than all the other assets in the country combined. The 
method of cultivating this asset was neither gentle cajoling 
nor persuasion but torture, rape, and child trafficking.
    Enslavement reigned for 250 years on these shores. When it 
ended, this country could have extended its hollowed 
principles, life, liberty, and the pursuit of happiness, to all 
regardless of color. But America had other principles in mind. 
And so, for a century after the Civil War, Black people were 
subjected to a relentless campaign of terror, a campaign that 
extended well into the lifetime of Majority Leader McConnell.
    It is tempting to divorce this modern campaign of terror, 
of plunder from enslavement. But the logic of enslavement, of 
white supremacy, respects no such borders. And the god of 
bondage was lustful and begat many heirs: coup d'etats and 
convict leasing, vagrancy laws and debt peonage, redlining and 
racist GI Bills, poll taxes and state-sponsored terrorism. 
Regret that Mr. McConnell was not alive for Appomattox. But he 
was alive for the electrocution of George Stinney. He was alive 
for the blinding of Isaac Woodard. He was alive to witness 
kleptocracy in his native Alabama and a regime premised on 
electoral theft.
    Majority Leader McConnell cited civil rights legislation 
yesterday, as well he should, because he was alive to witness 
the harassment, jailing, and betrayal of those responsible for 
that legislation by a government sworn to protect them. He was 
alive for the redlining of Chicago and the looting of Black 
homeowners of some $4 billion. Victims of that plunder are very 
much alive today. I am sure they would love a word with the 
majority leader.
    What they know, what this committee must know, is that 
while emancipation dead-bolted the door against the bandits of 
America, Jim Crow wedged the windows wide open. And that is the 
thing about Senator McConnell's something. It was 150 years 
ago, and it was right now. The typical Black family in this 
country has \1/10\th the wealth of the typical White family. 
Black women die in childbirth at four times the rate of White 
women. And there is, of course, the shame of this land of the 
free boasting the largest prison population on the planet of 
which the decedents of the enslaved make up the largest share.
    The matter of reparations is one of making amends and 
direct redress. But it is also a question of as citizenship. In 
H.R. 40, this body has a chance to both make good on its 2009 
apology for enslavement and reject fair-weather patriotism; to 
say that a Nation is both its credits and its debits, that if 
Thomas Jefferson matters, so does Sally Hemings; that if D-Day 
matters, so does Black Wall Street; that if Valley Forge 
matters, so does Fort Pillow. Because the question really is 
not whether we will be tied to the somethings of our past but 
whether we are courageous enough to be tied to the whole of 
them.
    Thank you.
    [The statement of Mr. Coates follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, Mr. Coates.
    Next witness is Mr. Danny Donny Glover, an actor, a 
producer, and an activist for various causes. He is currently 
goodwill ambassador for UNICEF, chairman of the board of 
TransAfrica Forum, an African American lobbying organization 
for Africa and the Caribbean, and a friend of Harry Belafonte.
    You are recognized for 5 minutes.

                   STATEMENT OF DANNY GLOVER

    Mr. Glover. Thank you, Mr. Coates.
    It is not often that you hear the words of a young man and 
they enliven your emotional memory, your historic memory, as he 
just did at this moment. Thank you so much.
    I am deeply honored to be here today offering my testimony 
at this historic meeting about the reckoning of a crime against 
humanity that is foundational to the development of democracy 
and material well-being in this country.
    A national reparations policy is a moral, democratic, and 
economic imperative. I sit here as the great grandson of a 
former slave, Mary Brown, who was freed by the Emancipation 
Proclamation on January 1, 1863. I had the fortune of meeting 
her as a small child. I also sit here as the grandson of Reese 
Mae Hunley and Rufus Mack Hunley. My maternal grandparents were 
both born before Plessy v. Ferguson, a Supreme Court decision 
in 1896. And for a significant portion of their lives, they 
were sharecroppers and tenant farmers in rural Georgia until 
they were able to save enough money to purchase a small farm. 
They were subsistence farmers.
    Despite much progress over the centuries, this hearing is 
yet another important step in the long and heroic struggle of 
African Americans to secure reparations for the damages 
inflicted by enslavement and post-Emancipation and racial 
exclusionary policies. Many of the organizations who are 
present today at this hearing are amongst the historical 
contributors to the present national discourse, congressional 
deliberations, and Democratic Party Presidential campaign 
policy discussions about reparations.
    We are also indebted to the work of Congressman John 
Conyers for shepherding this legislation. The adoption of H.R. 
40 can be a signature legislative achievement, especially 
within the context of the United Nations International Decade 
for People of African Descendant.
    We should also note that Common Market Nations and the 
Caribbean community, CARICOM, Reparations Commission, chaired 
by Professor sir Hilary Beckles, who is here with us today, has 
exercised a leadership role from which we as a Nation can 
benefit. Our sustained direct effective policy actions in full 
collaboration with African Americans and progressive citizens 
allies is the ultimate proof of the sincerity of our national 
commitment to repair the damages of the legally and often 
religiously sanctioned inhumanity of slavery, segregation, and 
current structural racism that limit full democratic 
participation and material advancement of African Americans and 
of our country's progress as a beacon of justice and equality.
    So I call on all of the elected public officials in 
Congress to demonstrate your commitment and action today and 
stand forth with Congresswoman Sheila Jackson Lee and cosign 
H.R. 40.
    In closing, with insightful and still--I close--excuse me--
with the insightful and still relevant words of Dr. Martin 
Luther king, Jr., in 1968. And I quote: Why is the issue of 
equality still so far from solution in America, a Nation which 
professes itself to be democratic, inventive, hospitable to new 
ideas, rich, productive, and ultimately powerful. Justice for 
Black people will not flow into society merely from court 
decisions nor from fountains of political oratory, nor will a 
few token changes quell all the tempestuous yearnings of 
millions of disadvantaged Black people. White America must 
recognize that justice for Black people cannot be achieved 
without radical changes in the structure of our society. The 
comfortable, the entrenched, the privileged cannot continue to 
tremble at the prospect of change in the status quo.
    Thank you.
    [The statement of Mr. Glover follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you.
    Go ahead.
    Ms. Katrina Browne is our next witness. She is a freelance 
speaker, educator, and facilitator. She produced and directed 
the documentary film ``Traces of the Trade: A Story from the 
Deep North,'' which she made in response to her discovery that 
her Rhode Island ancestors were the largest slave-trading 
family in United States history. She also currently serves as a 
consultant for the Episcopal Church's initiatives on racial 
healing, justice, and reconciliation, authoring a 10-session 
race dialogue series for congregational use. And I must 
parenthetically say that, when we were doing our apology, the 
Episcopal Church beat us to it. They were leaders on that 
effort. She has an M.A. in theology from the Pacific School of 
Religion where she wrote a thesis on film and civic dialogue.
    And you are recognized for 5 minutes.

                  STATEMENT OF KATRINA BROWNE

    Ms. Brown. Thank you, Chairman Cohen and Ranking Member 
Johnson and Representative Jackson Lee for the opportunity to 
speak this morning.
    I grew up in Philadelphia, six blocks from Independence 
Hall and the Liberty Bell. I am a deep-seated patriot. So it 
was devastating to learn from my grandmother at age 28 that our 
ancestors had been slave traders and to discover that the 
DeWolfs were, in fact, the largest slave-trading family in 
United States history, bringing over 12,000 Africans to the 
Americas in chains. That these were my Rhode Island ancestors 
and that Rhode Island turns out be to the State that sent more 
ships to Africa than any other required me to reorganize my 
brain.
    The amnesia in my family matched the larger amnesia of the 
North. The self-serving myths of being always on the right side 
of history. I could no longer carry a sense of moral 
superiority relative to White southerners nor a sense of 
innocence vis-a-vis the Black claims--vis-a-vis Black claims on 
the White conscience. I decided to initiate a family journey to 
retrace the triangle trade. Nine relatives joined me, two of 
which are here today. And the documentary ``Traces of the 
Trade'' is the result, the subtitle being ``A Story from the 
Deep North.''
    What we learned, how we stumbled, how we grew during that 
journey led me to become a passionate believer in the 
importance of reckoning with the history and legacy of slavery, 
a believer in personal and family reckonings, institutional 
ones, and larger national reckoning, and, with that, in the 
need for repair or reparative action, which can and should take 
many, many forms. I express wholehearted support for H.R. 40, 
and I have met countless people of all backgrounds who believe 
in this form of national effort as well.
    I know there are many who strenuously object to the premise 
that we need this reckoning. The pushback I hear most often is 
that is your problem given your ancestors, but it has nothing 
to do with me.
    It is understandable that people distance themselves. I 
will focus on two reasons. One, most of us learned a distorted 
history of slavery in school. So, as White Americans, most of 
us don't realize our connection to it. Second, there is a 
natural instinct to avoid that which can bring feelings of 
shame about our people, about the country that we love. To 
address the first issue, here is a quick rundown of historical 
facts I had not been taught: that the North was deeply 
implicated; that slavery was legal in Northern States for over 
200 years; that northerners up and down the economic spectrum 
made their livings and businesses tied to slave trade and 
slavery; that Northern mills processed cotton harvested by 
enslaved people.
    The Midwest and the West were implicated. They grew food to 
feed the South where land was devoted to cash crops like cotton 
harvested by the enslaved. Consumers throughout the country 
were implicated in their everyday purchases of clothing, 
coffee, sugar, rice, tobacco.
    People who immigrated from Europe after slavery were 
implicated. I have Irish, French, and German immigrant 
ancestors who came to the United States in the 19th century, 
worked in factories, struggled. But they were given access to 
the American Dream. Why were waves of immigrants flocking here? 
Because it was the land of opportunity. Why was the economy 
booming? Why were there jobs? Because it had been built largely 
on unpaid labor.
    Once here, European immigrants got to systematically 
leapfrog over Black families with devastating consequences up 
to the present day. So slavery built the Nation. It turned--
turning us into an economic powerhouse due mostly to, I must 
say, good folk who participated in mundane ways and looked the 
other way.
    Now for the second big reason for pushback against this 
bill: the emotions that it stirs up. And I would speak directly 
to my fellow White Americans on this. First, fear not, though 
it is counterintuitive, I have seen over and over again the 
liberating power of facing this painful past.
    Second, White people tend to imagine that Black people are 
angry at us. But in my experience, Black Americans don't blame 
us for the deeds of bygone ancestors but are rightfully angry 
that we don't just drop the defensiveness or the self-absorbed 
guilt and sign up to work with them shoulder to shoulder to 
tackle the legacies that are still with us.
    Third, when we let go of defensiveness or guilt, we can get 
to a healthy and shared grief which opens the door to sober, 
sacred, respectful, creative, collective conversation about how 
to make things right.
    There are scores of organizations that are already able to 
attest to this, the power of this work. They know, I know that 
the process that a commission would help the country embark 
upon could be a transformative, positive, and life-giving thing 
for the country as a whole, a beautiful thing. It is good for 
the soul of a person, a people, and of a nation to set things 
right.
    Thank you.
    [The statement of Ms. Browne follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cohen. Thank you, Ms. Brown.
    And I would note that the Capitol was built with slave 
labor. And because of the work of Representatives Jesse 
Jackson, Jr., and Zach Wamp, the new Visitors Center is named 
Emancipation Hall in recognition.
    Mr. Coleman Hughes is a columnist for Quilette and has 
worked as a freelance opinion writer since January 2018. He has 
had pieces published in The New York Times, the Wall Street 
Journal, the National Review, the City Journal, and The 
Spectator. He is studying philosophy at Columbia University. 
And we appreciate your attendance, and you are recognized for 5 
minutes, sir.

                  STATEMENT OF COLEMAN HUGHES

    Mr. Hughes. Thank you, Chairman Cohen, Ranking Member 
Johnson, and members of the committee. It is an honor to 
testify on a topic as important as this one. Nothing I am about 
to say is meant to minimize the horror and brutality of slavery 
and Jim Crow. Racism is a bloody stain on this country's 
history, and I consider our failure to pay reparations directly 
to freed slaves after the Civil War to be one of the greatest 
injustices ever perpetrated by the U.S. Government.
    But I worry that our desire to fix the past compromises our 
ability to fix the present. Think about what we are doing 
today. We are spending our time debating a bill that mentions 
slavery 25 times but incarceration only once in an era with no 
Black slaves but nearly a million Black prisoners; a bill that 
doesn't mention homicide once at a time when the Center for 
Disease Control reports homicide as the number one cause of 
death for young Black men.
    I am not saying that acknowledging history doesn't matter. 
It does. I am saying there is a difference between 
acknowledging history and allowing history to distract us from 
the problems we face today.
    In 2008, the House of Representatives formally apologized 
for slavery and Jim Crow. In 2009, the Senate did the same. 
Black people don't need another apology. We need safer 
neighborhoods and better schools. We need a less punitive 
criminal justice system. We need affordable healthcare. And 
none of these things can be achieved through reparations for 
slavery.
    Nearly everyone close to me--nearly everyone close to me 
told me not to testify today. They told me that even though I 
have only ever voted for Democrats, I would be perceived as a 
Republican and, therefore, hated by half the country.
    Others told me they that, by distancing myself from 
Republicans, I would end up angering the other half of the 
country. And the sad truth is that they were both right. That 
is how suspicious we have become of one another. That is how 
divided we are as a Nation.
    If we were to pay reparations today, we would only divide 
the country further, making it harder to build the political 
coalitions required to solve the problems facing Black people 
today. We would insult many Black Americans by putting a price 
on the suffering of their ancestors. And we would turn the 
relationship between Black Americans and White Americans from a 
coalition into a transaction, from a union between citizens 
into a lawsuit between plaintiffs and defendants.
    What we should do is pay reparations to Black Americans who 
actually grew up under Jim Crow and were directly harmed by 
second class citizenship, people like my grandparents. But 
paying reparations to all descendants of slaves is a mistake. 
Take me for example. I was born three decades after the end of 
Jim Crow into a privileged household in the suburbs. I attend 
an Ivy League school. Yet I am also descended from slaves who 
worked on Thomas Jefferson's Monticello Plantation. So 
reparations for slavery would allocate Federal resources to me 
but not to an American with the wrong ancestry even if person 
is living paycheck to paycheck and working multiple jobs to 
support a family. You might call that justice. I call it 
justice for the dead at the price of justice for the living.
    I understand that reparations are about what people are 
owed regardless of how well they are doing. I understand that. 
But the people who are owed for slavery are no longer here, and 
we are not entitled to collect on their debts. Reparations by 
definition are only given to victims. So the moment you give me 
reparations, you have made me into a victim without my consent. 
Not just that, you made one-third of Black Americans who poll 
against reparations into victims without their consent. And 
Black Americans have fought too long for the right to define 
themselves to be spoken for in such a condescending manner.
    The question is not what America owes me by virtue of my 
ancestry. The question is what all Americans owe each other by 
virtue of being citizens of the same Nation. And the obligation 
of citizenship is not transactional. It is not contingent on 
ancestry. It never expires, and it can't be paid off. For all 
these reasons, bill H.R. 40 is a moral and political mistake.
    Thank you.
    [The statement of Mr. Hughes follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cohen. Thank you, Mr. Hughes.
    Chill, chill, chill, chill. He was presumptive, but he 
still has a right to speak.
    Mr. Burgess Owens is recognized.
    Every witness and everybody here should be treated with 
respect. And please do so.
    Mr. Burgess Owens is an author and a retired professional 
football player for the New York Giants and the Oakland 
Raiders. He is the author of a number of books, including the 
2016 book ``Liberalism or How to Turn Good Men Into Whiners, 
Weenies and Wimps,'' which offers a history and analysis of the 
Black experience in the United States. He attended the 
University of Miami, home of the Ibis, blow Hurricane, blow. 
Mr. Owens, you are recognized for 5 minutes.

                   STATEMENT OF BURGESS OWENS

    Mr. Owens. Thank you so much for this opportunity.
    I am going to take a different tack from beginning. We are 
at this point, this is not about Black and White, rich or poor, 
blue collar, White collar. We are fighting for the heart and 
soul of our Nation. We have a very, very special country that 
started with Judeo-Christian values that allowed every single 
generation become better than the last. And that has not ended. 
It has not stopped until now. We are telling our kids a little 
bit something different, that they don't have the opportunities 
that we had.
    I want to talk about some ideologies. When I talk about 
them, I am not taking about people. People change. I used to be 
a Democrat until I did my history and found out the misery that 
that party brought to my race. So I talk with the ideologies, 
ideologies don't change; people do. We are fighting for the 
heart and soul of our Nation against socialism and Marxism and 
the evil that it has brought to us and the stealing of our 
history. Karl Marx said it best, the father of socialism, an 
atheist, anti-Semite and a blatant racist, yet we teach his 
philosophy in our school systems today. He said the first 
battleground is the rewriting of our history. You steal our 
history, you steal our pride in our past, appreciation for our 
present and a vision for our future. And every single urban 
city in our country is now experiencing that loss.
    Real quick history because these are things we are not 
taught. I am blessed to be a great-great-grandfather of Silas 
Burgess. He came here in the belly of a slave ship, sold in 
Charleston, South Carolina, with his mother to the Burgess 
plantation, an evil, evil man that drove my great-great-great 
grandmother either into leaving her family, her kids, or 
committing suicide. I don't know. She disappeared. But Silas at 
the age of 8 was blessed to be surrounded by men who believed 
in freedom, even though they were shackled, they escaped. They 
went the southern route of the underground railroad, 
facilitated by White and Mexican Americans. And made his way 
south to Texas, end up being a successful entrepreneur, owned 
102 acres of land paid off in 2 years. Started the first Black 
church, the first Black elementary school, pillar of his 
community, 18 kids, Christian, Republican. His first son was 
Alpha Omega, proud American, an example of what happens when 
any race, any culture is given hope, opportunity, and freedom. 
It didn't end there, by the way. The history of our Black 
country, of our Black America has been stolen from us for 
decades, almost over a century. Booker T. Washington 1882, 
began Tuskegee University. By 1905 it was producing more self-
made Black millionaires than Harvard, Yale, and Princeton 
combined. The '40s, '50s, and '60s, it was a Black community 
that led our country in the growth of the middle class, led our 
country in terms of the men committed to marriage--over 70 
percent; now it is 30 percent--led our country in terms of 
community business ownership 40 percent; now it is 3.8 percent. 
Men matriculating college. We now have more--a higher 
percentage of men incarcerated than in college.
    By the way, my degree is biology. I learned a long time ago 
that slavery is not a gene in the DNA helix. It is our actions. 
It is our attitude. It is our belief. I do not believe in 
reparations because what reparations does, it points to a 
certain race, a certain color, and it points to them as evil 
and points the other race, my race, as one that--it not only 
becomes racist, but they are also beggars.
    I do believe in restitution. Let's point to the party that 
was part of slavery, KKK, Jim Crow, that has killed over 40 
percent of our Black babies, 20 million of them. The State of 
California, 75 percent of our Black boys cannot pass standard 
reading and writing tests, a Democratic State. So yes let's 
play restoration--let's play restitution. How about a 
Democratic Party pay for all the misery brought to my race, and 
those who, after we learn our history, decide to stay there, 
they should pay also; they are complicit. And every White 
American, Republican or Democrat, that feels guilty because of 
your White skin, you should need to pony up also. That way we 
can get past this reparations and realize that this country has 
given us greatness. Look at this panel. It doesn't matter how 
we think. It doesn't matter our color. We have become 
successful in this country like no other because of this great 
opportunity to live the American Dream. Let's not steal that 
from our kids by telling them they can't do it.
    Thank you.
    [The statement of Mr. Owens follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cohen. Our next witness will be the Right Reverend 
Eugene Taylor Sutton. He is Bishop of the Episcopal Diocese of 
Maryland, a position held since 2008, previously served as 
canon pastor of the Washington National Cathedral and director 
of the Cathedral Center for Prayer and Pilgrimage. Bishop 
Sutton has been a leader of retreats and conferences on 
nonviolence, reconciliation in the environment, and has taught 
at New Brunswick at Vanderbilt University Divinity School. He 
is a graduate of Hope College. He earned his master of divinity 
degree at Western Theological Seminary, completed his Anglican 
studies at the University of the South School of Theology. 
Reverend Sutton, you are recognized.

      STATEMENT OF THE RIGHT REVEREND EUGENE TAYLOR SUTTON

    Rev. Sutton. Thank you, Mr. Chairman.
    I am here today as a bishop of the Episcopal Church, 
representing for many a perspective of the faith community in 
favor of the proposed legislation on reparations.
    I might say right at the outset the debate we are having 
here this morning and the witness of my colleagues here points 
to the need to establish a commission. This debate needs to 
happen. And we need to entertain proposals for how we redress 
the evils of our past. If we don't address those problems in an 
open and fair way, then we are continuing to be lost as a 
Nation.
    By the way, in terms of politics, some of my friends are 
for Democrats; some of my friends are for Republicans. And as a 
religious leader, I am for my friends.
    I want to say that, last month, the Episcopal Diocese of 
Maryland that I lead, 110 congregations across most of the 
State of Maryland, voted unanimously for the affirmation of 
reparations of our diocese, knowing that so many of the 
resources of our diocese was gained from uncompensated labor of 
enslaved persons. One hundred percent, not a single negative 
vote from a diocese that is over 90 percent White, encompassing 
people from western Maryland, who have their own history of 
injustices, coal miners and others, southern Maryland, suburbs, 
and city people. How and why did that happen? If it could 
happen in that diocese, I am convinced it can happen in 
America.
    It happened because when the subject with the issue of 
reparations are fairly and fully explained, Americans want to 
do the right thing. That issue of reparations is mired in 
emotion. It is often mischaracterized and certainly largely 
misunderstood. It wells up an emotional response in people to 
the word, but when you break it down on what it is actually to 
do, we find that many of those emotions dissipate.
    Why is there a need for it? Let me tell you a story of a 
friend of mine. She and her husband--she was a pastor of a 
congregation. A long time ago, she told this story of, when 
their child was young, there was a young girl, a young teenager 
in the congregation who knew they had a need for babysitting, 
and she said, ``I will sit for your son tonight.'' And then she 
volunteered again. And then my friend and her husband started 
calling on her more and more, ``Would you do this? Would you do 
this?'' Never was the issue of money brought up. They knew she 
volunteered at first, but she the teenager wanted to do this 
for that more powerful person in that church. That went on for 
years.
    After a while, my friend and her husband thought this was 
unfair; this actually was an injustice toward her. They wrote 
her a letter then now in college, and they said, ``We believe, 
we have come to know that we--that this was an injustice. We 
are sorry. We want to make amends.'' The young woman wrote 
back, ``Thank you.'' And then they worked out a way that she 
could be compensated for her years of work. Their relationship 
was reconciled. They could look each other in the eye in a way 
that they could not before because that wall of injustice of 
that past got in the way of their current relationship. That is 
what reparations is. And that is what our Nation has failed to 
do for the last 120 years.
    Reparations quite simply means to repair that which has 
been broken. It is not just about monetary compensation. An act 
of reparation is an attempt to make whole again, to restore, to 
over atonement, to make an amends, to reconcile for a wrong or 
an injury. It is not the transfer of money from White people to 
Black people. It is what this generation, our generation, will 
do to repair the broken pieces of the racial mess that we have 
all inherited.
    As an African American who is a descendant of slaves who 
were never compensated, I can honestly say to all White people: 
We have forgiven you. We forgave this country a long time ago, 
and we continue to forgive every day, but we are not 
reconciled. To reconcile means to put back together again that 
which has been broken.
    After the hard-fought abolition of slavery, there was a 
fateful denial in our Nation of reparations for freed African 
American people. Even though, in many instances, White 
plantation owners received reparations in the form of 
compensation for the losses they incurred from the Civil War 
and the end of slavery. This Nation is not--we know about 
reparations. It is just that it has never been done for those 
who deserved it the most.
    Finally, I am a Christian. That means I hold to the Holy 
Scriptures of the Old and New Testaments as my guideposts and 
to the teachings of Jesus. The Bible mandates that leaders are 
to be held accountable for the fair and equal treatment of 
every inhabitant in the land. All of us have been taught to 
love everyone, regardless of their race and human condition. 
However, we must come to acknowledge that there can be no love 
without justice, and there can no justice without some form of 
repairing an injustice.
    I hear from many of my White friends, White brothers and 
sisters, this question: What do Black people want? Haven't we 
done enough? What do they want? I want to turn the question 
around. What do you want? What kind of America do you want to 
live in? If you are happy with the state of race relations now, 
don't do anything on this issue. But if you want a reconciled 
nation, let's get this commission and let's entertain those 
proposals.
    [The statement of Rev. Sutton follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you very much, Reverend.
    Before I recognize our next witness, I want to recognize a 
Member of Congress who is here, Representative Fredericka 
Wilson from Florida. And we appreciate your attendance.
    Our next witness is Dr. Julian Malveaux. Dr. Malveaux is a 
labor economist, noted author and frequent media commentator. 
She wrote a weekly column for more than a decade that appeared 
in newspapers across the country, including the LA Times, the 
Charlotte Observer, The New Orleans Tribune, the Detroit Free 
Press, and The San Francisco Examiner, hosted television and 
radio programs, and appeared widely as a commentator on 
networks, including CNN, BET, PBS, NBC, ABC, FOX News, MSNBC, 
CNBC, C-SPAN, our favorite station, and others. She also serve 
as a 15th president of Bennett College for Women, America's 
oldest Historically Black Women's College, received her Ph.D. 
in economics from MIT, and her bachelor's and master's degrees 
from Boston College. Thank you for coming, and you are 
recognized for 5 minutes.

                 STATEMENT OF JULIANNE MALVEAUX

    Ms. Malveaux. Chairman Cohen, thank you so very much for 
this opportunity. I also want to thank my sister friend, 
Congresswoman Sheila Jackson Lee, and my twin sister over 
there, Congresswoman Karen Bass--people frequently comment on 
our resemblance--and, of course, Congressman Nadler for your 
work and your leadership, and Dr. Ron Daniels, who was here it 
has been mentioned his leadership of NAARC, the National 
African American Reparations Commission, on which I serve.
    I am delighted to be here because this hearing is not on 
time; it is like overtime. It is more than time for us to deal 
with the injustices that African American people, not only have 
experienced in history, but continue to experience. I am an 
economist. So economics is a study of who gets what, when, 
where, and why? It is a study of the way the factors of 
production are paid, the elements, our land, labor, capital, 
and the secret sauce: Some people call it entrepreneurial 
ability; some call it creativity. Land gets rent. Labor gets 
wages. Capital gets interest. And the secret sauce gets 
profits. But the work of predatory capitalism is to figure out 
how to extract more from the factors of production toward 
capital and away from people. And we have seen that in the past 
three decades with our own economy, but more importantly, 
enslavement was about the Devil's work of predatory capitalism.
    Indeed, enslaved people got no wages, and we represented 
capital for other people. And so after enslavement--first of 
all, enslavement was the foundation on which our country was 
built. So anybody who says, ``Well, I didn't have any slaves,'' 
no, you didn't have to have any. What you had to do was 
experience them, enjoy the fact that they were here, enjoy the 
fact that their labor made it possible for there to be a Wall 
Street, a bond market, and all of that.
    But, beyond that, I want to speak specifically to section 
3(b)3 of the legislation. That is the part that talks about the 
Federal and State laws that discriminate against formerly 
enslaved Africans and the descendants who are deemed United 
States citizens. From Robert Higgs, in a book called 
``Computation and Coercion: Blacks and the American Economy, 
1865 to 1914,'' he shows that, in 1880, the ratio of Black to 
White was 1 Black dollar for 36 White dollars; 1890, 1 to 26; 
1900, 1 to 23; 1910, 1 to 16; today 1 to 20. In other words, we 
are almost worse off in 2019 than we were in 1910 because of 
evil because basically there have been deliberate attempts to 
marginalize African American people, especially those who were 
formerly enslaved, because of the interest of predatory 
capitalism and because it is expedient to maintain the status 
quo of having free Black labor and to prevent wealth 
accumulation.
    Despite the 13th, 14th and 15th Amendments Black people 
were treated as other and perniciously and viciously excluded 
from the possibilities of economic advancement. The Emergency 
Land Fund documented the reduction of Black land ownership 
between 1910 and 1969 from 60 million acres to 6 million acres. 
How and why? Land grabs, tax schemes, faulty deeds, and 
downright force. My own family in Moss Point, Mississippi, 
experiencing expropriation of land through a moving fence, like 
the fence moved one night. We used to have land, and we didn't 
have the land. Years later, after a couple of cousins were 
lynched, they changed the name of the land to Hawkins Lane. So 
they named it after us, but we didn't get it back. Joseph 
Brooks in 1978 estimated that Black folks were losing 6,000 
acres of land per week, and we saw what happened with the 
Agricultural Department.
    The post-enslavement case for reparations can be made by 
examining racially hostile policy and government complicity to 
white supremacy. You all have an article that I wrote for the 
ACLU that talks about several cases, Memphis; Wilmington, North 
Carolina; Tulsa, Oklahoma. But these were the tip of the 
iceberg. The this happened everywhere. The journalists Ida B. 
Wells said that lynching was the first example of white 
supremacy because it was a tool of terrorism. It dampened the 
ability of African American people to participate in the 
vibrant entrepreneurship of the late 19th and early 20th 
century with a chilling message that our economic success could 
be punished by the rope.
    The economic damage to Black people post-Reconstruction can 
be summarized in three ways: Number one, we were denied the 
ability to participate in our Nation's economic growth. The 
Homestead Act of 1862 did not include formerly enslaved people. 
More than 10 percent of the continental U.S. land was 
distributed to recent immigrants from Europe, but not Black 
folks. So the 40 acres and a mule was given to somebody else, 
not us. These folks were able, not only to get land, but then 
to get grants from the Federal Government to develop their 
land. Meanwhile, African American people were denied the right 
to these wealth transfers.
    Secondly, we were denied the right to accumulate. The 
attacks of the paper that I mentioned talks about how our 
accumulation was essentially stymied by lynching. The first 
lynching that Ida B. Wells examined was one when a Black man 
had the nerve, the utter nerve, to open up a grocery store near 
a White man's store. So the White man had the brother lynched, 
had three people lynched because of economic envy. Listen to 
those words: economic envy. This is how Black people have been 
suppressed in their ability to accumulate.
    Tulsa, Oklahoma; Wilmington, North Carolina, long stories 
that I don't have any time to talk about. I want you all to 
look at the paper I submit and to think about the many ways 
that Black people who tried to participate, tried to encourage, 
tried to be American, simply tried to be economic actors, was 
suppressed because they have the nerve to think it worked. So, 
my brothers over here who say their American Dream, it is some 
people's American nightmare, let's just be clear.
    Number three, public policy hostility, the public policy 
hostility to Black people: GI Bill, legislation, truncated 
opportunities for African American veterans, Federal Housing 
Administration, reinforced redlining and segregation as an 
official policy of the Federal Government. People talk about 
racists as if they are individuals. Yes, sir, but the fact they 
are not individuals; they are individuals who are buttressed by 
the Federal Government and legislation.
    So let me simply say H.R. 40 is important, NAARC has 
developed a 10 point plan, but more importantly, as you, my 
brothers and sisters on this Congress, go forward, may there be 
a racial justice audit of any new legislation that has economic 
implications. Thank you.
    [The statement of Ms. Malveaux follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cohen. Our final witness is Professor Eric Miller, 
professor of law at Loyola Law School in Los Angeles. He has 
held a number of law teaching positions since 2003, where he 
has written a number of academic pieces on reparations, among 
other topics. He testified in December of 2007 before this 
subcommittee on the legacy of the transatlantic slave trade in 
America. Professor Miller received his bachelor of law with 
first class honors from the University of Edinburgh in U.K., 
and his master of law degree is from Harvard Law School, and he 
has held a number of fellowships.
    Professor Miller, welcome back. You are recognized for 5 
minutes.

                  STATEMENT OF ERIC J. MILLER

    Mr. Miller. Mr. Chairman, members of the committee, I am 
honored by the committee's invitation to testify at this very 
important hearing on H.R. 40 and the path to restorative 
justice.
    I will speak to my experience as an academic studying the 
issue of reparations and as a lawyer representing the victims 
of the Tulsa massacre of 1921 in a reparations lawsuit against 
the State of Oklahoma and the city of Tulsa. In the short time 
available, I want to make the following points: Local, State, 
and Federal governments were active perpetrators of race-
targeted discrimination against and domination of African 
Americans during slavery and Jim Crow and beyond. These 
governmental institutions engaged in the massive social, 
political, economic, and cultural destruction of African 
American communities. Many of the perpetrators and victims of 
race-targeted state action are readily identifiable through a 
thorough investigation of existing historical records currently 
in the hands of public and private institutions.
    The race-based disparities brought about by Federal, State, 
and local government discrimination remain baked into our 
governmental institutions, as well as the persistently 
segregated private social ordering those institutions brought 
about.
    Reparations addresses the ways in which these institutions 
entrance race-based discrimination and domination throughout 
American social, cultural, economic, and political 
institutions. The committee should consider specific legal 
remedies to remove the time-limited bars against litigation, 
which is among the major impediments preventing identifiable 
victims of extraordinary race-targeted state action to sue 
State and Federal Governments for financial damages.
    There have been multiple reparation-style lawsuits brought 
since the Supreme Court decided City of Richmond v. Croson 
which have survived constitutional challenge. But reparations 
must also include rebuilding the social, political, economic, 
and cultural infrastructure of the communities destroyed by the 
state because, without cultural and political reparations, 
race-neutral programs of economic uplift will preserve the 
relative social and political disadvantage, domination, and 
disempowerment of African Americans across this Nation.
    The urgent need for the H.R. 40 commission on reparations 
as a path to restorative justice for the victims of state-
sponsored racial injustice became clear to me in 2003. That is 
when I joined the Reparations Coordinating Committee, a group 
of lawyers led by Charles Ogletree and Adjoa Aiyetoro. Our 
legal team filed suit representing more than 125 still living 
survivors of the Tulsa, Oklahoma, race massacre of 1921.
    Now some historical context is in order here. On May 30th, 
1921, some African Americans mobilized to stop lynching in 
Tulsa, Oklahoma. One lynching had an effect on a whole 
community because, in response, White citizens deputized by the 
police and aided by the State National Guard burned down the 35 
city blocks of Greenwood, a thriving African American 
residential and business district in Tulsa. Up to 300 African 
Americans died in the massacre in the ensuing fire. Overnight, 
5,000 African Americans became homeless; 3,000 terrorized 
people fled the city. The rest were rounded up and held under 
guard for days at the local baseball park and fairground. The 
Red Cross had to mobilize to provide tents for those who 
remained. The city of Tulsa and the State of Oklahoma moved 
quickly to suppress news of a massacre. Survivors were 
terrorized into silence. All mention of it was excised from 
official accounts of Oklahoma history. The details of the 
massacre only became public in 2003 after the State of Oklahoma 
formed an H.R. 40 style commission, including historians, 
lawyers, and activists, to report on the massacre. The 
commission's painstaking research through the historical record 
discovered much previously unavailable material. The commission 
apportioned detailed financial damages and proposed that 
reparations be paid to survivors and descendants.
    When the State refused to make good on these 
recommendations, we filed a lawsuit trying to complete the 
process begun by the commission. The only impediment to our 
success, the court acknowledged, was a rule requiring the 
survivors to file any lawsuit within 2 years of injury. These 
statutes of limitations are the major impediment to many 
reparations lawsuits.
    The Tulsa experience demonstrates the harms of slavery and 
segregation scar our communities to this day. The city and 
State dismantled economically, politically, and culturally a 
specific community: African Americans in Tulsa. Subsequent 
generations of Greenwood residents have labored under the 
social and disempowerment whilst trying to rebuild their 
community. The Tulsa experience is emblematic of many African 
American communities around this country. So whilst a monetary 
payment would count as a beginning, economic justice is not 
enough without racial justice to repair the specific race-based 
wrongs of the Tulsa massacre and its aftermath.
    To quote Harvard law professor and reparations activist 
Charles Ogletree, ``reparations are more than an exercise in 
education, remembrance, and apology; reparations demand the 
political, social and economic power and equality for African 
Americans that has been stifled and suppressed in America since 
its inception.''
    Accordingly, I urge Congress to pass H.R. 40 as a first 
vital step on the path to acknowledging and accounting for the 
history of race-targeted discrimination and wrongdoing that has 
marked too much of this Nation's history.
    [The statement of Mr. Miller follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cohen. Thank you, Professor Miller.
    We will now proceed under the 5-minute rule of questions. 
And I will begin now by recognizing myself for 5 minutes.
    Mr. Ta-Nehisi Coates, in your article, ``The Case for 
Reparations,'' you state: 250 years of slavery, 90 years of Jim 
Crow, 60 years of separate but equal, 35 years of racist 
housing policies. Until we reckon with our compounding moral 
debts, America will never be whole.
    Why should the Federal Government bear responsibility for 
economic and social damages to the descendants of the enslaved?
    Mr. Coates. I thank you, Chairman Cohen. I think the most 
obvious reasoning is because the Federal Government is 
complicit in it. The article that you spoke about--this period 
of white supremacy that you referenced in the headline, it is 
so broad that, if I tried to cover it in one article, it would 
have been impossible. So I focused on a very specific thing, 
and that is the period of Jim Crow and housing segregation and 
redlining, specifically in the city of Chicago.
    The Federal Government should pay because the Federal 
Government was deeply complicit in housing segregation and 
redlining and in the plunder of Black homeowners in Chicago. It 
would not have existed if the FHA had not had a policy of not 
ensuring loans for Black people living in Chicago. It would not 
have existed if not for the redlining maps which were written 
and created by this government of every major city in the 
country, which effectively relegated Black people, whether they 
had a down payment or not, outside of a class of people who 
could benefit from a movement which basically created our 
modern middle class. And so I don't know how it would be 
possible to exempt the Federal Government from such a process.
    And, furthermore, I just have to make this point over and 
over: Many of the people who were victimized by housing 
segregation and by redlining are very much alive today. So this 
is not strictly about the past. This is identifiable victims, 
as Dr. Miller--as Professor Miller--said, who were there and 
who are ready to be part of the process.
    Mr. Cohen. Thank you, sir.
    Reverend Sutton, let me ask you, you heard Mr. Hughes' 
testimony and said he didn't want reparations. Do you believe--
and this would be a study of reparations--H.R. 40 draws no 
conclusions; it would be a study--do you believe that there 
should be exclusions for wealthy folks who have been successful 
and maybe emphasize deeds and works and actions that help the 
people who have not achieved as much and lift them up?
    Rev. Sutton. I believe that one of the reasons why it was 
so widely accepted in my--I believe one of the reasons why the 
vote for reparations was so widely accepted in my diocese is 
because we separated it from Black descendants of slaves 
getting checks. We are talking about funding initiatives, 
programs, addressing issues, such as mass incarceration. And 
when that is explained to people that that is a reparation, 
that is repairing something that can be traced to slavery, then 
that is the case.
    Personally, I am not looking for a check from the Federal 
Government or from my church or anything. I am concerned about 
those who have been left behind, the masses of African American 
descendants of slaves who are mired in hopelessness and despair 
in communities of crime, violence, poverty, and racism.
    And so I think if we can at least have a civil good 
conversation on the concept of reparations, then talk about 
money because the moment you start talking about money, the 
idea, especially among many White persons--``I am going to give 
a check to Black persons? What about me?''--the moment you 
begin with money, then the resistance goes up. Let's talk about 
the concept.
    Finally, in relation to your question, we have a problem in 
this Nation of being able to talk civilly about race. And when 
I am talking for reparations, I am talking about those who are 
left behind, but I am actually talking to my White brothers and 
sisters. You need this more than we do. You need this for your 
soul. You need this to be able to look Black persons in the eye 
and say, ``I acknowledge the mistake, and I want to be part of 
the solution to repair that damage.''
    Mr. Cohen. Thank you, Reverend Sutton.
    As Reverend Sutton speaks to the soul, Dr. Malveaux, you 
speak to the economics. And if some of this efforts to 
remediate the past, as Dr. Ogletree has spoken about, a massive 
influx of moneys for health, education, and job training, if 
some of that went into areas where there are large 
concentrations of descendants of slaves who have not succeeded 
for a myriad of reasons and if some of that went to White folks 
who were there who also are living in bad conditions, would 
that be a problem do you think, Dr. Malveaux, or would that 
just be helping everybody that is in a miasma?
    Ms. Malveaux. Chairman Cohen, it is really interesting that 
right this minute, as we are having this hearing, Reverend 
William Barber is having a hearing on poverty. So this is a 
great day for economic justice issues. Poverty is a problem in 
our Nation. But you can't fix poverty nor can you fix 
inequality unless you deal with racism. And dealing with racism 
is about dealing with reparations. I am with the Reverend 
here--I don't care about a personal check made out to Julianne 
Malveaux or anybody else. How about we fully fund our 
Historically Black Colleges and Universities? How about--once 
upon a time, Brother Chairman, we had more than 100 Black-owned 
banks; now we have 23. How come? Again, the Devil is busy. 
Pernicious legislation that basically caused people to lose 
banks, changing in reserve requirements, and things like that, 
gentrification. While you have empty swaths of land all over 
other Nation, why not deal with that?
    So I respect your question about areas, but I think that 
really does speak to our dis-ease, our uneasiness in talking 
straight up, upfront about race. Race is our Nation's second 
original sin. The first was what we did to Native people. 
Racism enslavement was our original sin, and we have got to 
deal with reparations by dealing exactly with that. If we want 
to have an American Marshall Plan that deals with all poor 
people--Reverend Barber says there are 140 million poor people, 
43 percent of our Nation--let's deal with that. But let's not 
forget that race is central to anything we do around economic 
justice.
    Mr. Cohen. Thank you, Doctor.
    My time has expired. And I recognize the ranking member Mr. 
Johnson for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    And, again, thank you to all of you for your time and your 
heartfelt sentiments. And we know they are sincere.
    Mr. Hughes, I want to thank you for your honesty and your 
humility and your courage, sir. I know this isn't easy today.
    Here is a big question that hangs over all of this and that 
all of us need to I guess address. Look, many people believe, 
on all sides of the political spectrum, that racial inequality 
that we see today is not entirely attributable to the legacy of 
slavery and Jim Crow. It is a factor, but it is not entirely 
attributable. Can you elaborate on what some of the other 
causative factors may be?
    Mr. Hughes. Well, the first thing I would say is that 
blaming slavery and Jim Crow for the entirety of racial 
disparity--obviously, it is clearly a factor--but blaming it 
for the entirety of the problems we see today facing Black 
people is actually a way of not taking responsibility for 
policy decisions that were made just in the last 50 years. Our 
prisons did not balloon until the 1980s. Unemployment for Black 
and White youths were virtually identical until the late 1950s, 
the early 1960s. So, perversely, by blaming slavery and Jim 
Crow for everything, we actually fail to take responsibility 
for policy decisions that were made on both sides of the aisle 
in very recent history.
    Secondly, I would say that there is a naive assumption 
that, wherever there is a statistical gap in outcomes between 
two groups, that that gap must be attributable to some kind of 
discrimination, whether that is overt or whether that is 
structural in systemic. That assumption is not true. Okay. 
Just, I will give one example, but I could give dozens. 
According to 2015 Census figures, there is a 21 cents on the 
dollar gap, 21 cents on the dollar gap in household income 
between White Americans of Russian descent and White Americans 
of French descent. Right? Disparity is the norm, not the 
exception.
    So the question is not why two groups would have different 
outcomes, whether it is for wealth, income, or incarceration. 
The question is why we would expect any two groups with 
different histories, different geographical patterns, different 
patterns of migration, different cultures to nevertheless get 
exactly the same outcomes.
    Mr. Johnson. Thank you for that.
    Mr. Owens, thank you as well. And I was moved by your 
testimony about the fact that we are fighting for the heart of 
our Nation. I think everybody in this room as part of the 
American family understands that we see it different ways.
    Here is a question, in your opinion, is there a formula 
that allowed the African American community to achieve the 
measures of success during the '40, '50s, and '60s that is 
missing today?
    Mr. Owens. There is. And I am going to point to Booker T. 
Washington to tell you what that formula is.
    First, I want to set up a few things, square a few things 
away. I had been talking about restitution a little bit ago, 
and I have so much respect for the Black men and women who 
built that great Wall Street out of Tulsa. Not only did they 
have--they had 60 millionaires. They had international 
business. Within 12 hours, it was destroyed by air by 
Democratic KKK. A lot of White--they were White people, yes, 
but they were part of a certain party. Forty acres and a mule, 
that was actually implemented. But when the Democratic 
President Andrew Johnson took over, they took that land back. 
They took away their guns, and then they took away their land.
    KKK, inside of the Democratic Party by the way, they 
lynched 4,700 people; 1,500 of them were White Republicans. So, 
yes, we have a lot of evil going on, but let's not broadbrush 
this guys. There is a certain ideology that certain people that 
belong to a certain area, a certain niche, we need to hold them 
accountable. And so let's do that, and I think we are in good 
shape.
    Booker T. Washington had four foundations: It was head, 
heart, hands, and home. In that process, head is education; 
heart is compassion and service; hands are industry 
entrepreneurship; home is family. The reason why my race were 
kicking butt--the history is not being told--they were 
beating--they were so busy, they weren't looking at finding 
somebody to blame for where they were. They were busy beating 
out these racists. That is what my parents did. At the end of 
the day, they held on to those principles for decades until the 
socialists and Marxists got into our community and they stopped 
educating our kids.
    I said something earlier, and there has not been aghast--75 
percent--2017, the Department of Education study, 75 percent of 
Black boys in the State of California cannot pass reading and 
writing tests. And you wonder where they are going to go from 
here? They are not going to learn anything about our country. 
They are not going to read about our God. They are not going to 
hear anything about what we the people have done together. They 
are going to turn on BET and hear how bad they have been 
treated. They are going to hear how bad our country is, how bad 
White people are. They are going to be taught how to disrespect 
our women, and they are going to be put in jail. And then we 
are going to sit around and talk about why is this being done.
    Let's put a commission together: Why is this happening with 
so many of our kids not being educated in every single urban 
American city in our country? That is what our problem is.
    As we ho-hum and we blame people from years ago, we have 
yet to put together a commission. How about this one: 82 
percent of Black teen males across our country in the last 8 
years, unemployed, soon becoming unemployable; 92 percent in 
our liberal city of Chicago, where we are killing each other 
right and left, and there is not one commission, not one peep 
about this misery that is going on in our country.
    I have something I put in my book. I am going to read this 
real quickly: Evil is the person who is stealing the hopes and 
dreams and future of an individual. Pure evil is the target of 
a race of millions and using human misery as political strategy 
to steal their hopes, dreams, and future.
    We are dealing with pure evil, to have my race dealing with 
the evil, the misery that we have been dealing with, and no one 
says a word, other than: Let's look back and see what has 
happened for 200 years ago.
    Let's deal with today, and I think we will be in good 
shape.
    Mr. Johnson. Thank you for that.
    I am out of time. I yield back.
    Mr. Raskin [presiding]. The gentleman's time has expired. 
Thank you very much.
    The chairman of the Judiciary Committee is recognized for 5 
minutes.
    Chairman Nadler. I thank you. I am going to ask one 
question and then yield to the gentlelady from California, Ms. 
Bass.
    Mr. Coates, Senate Majority Leader Mitchell McConnell on 
Tuesday said that he does not support reparations for 
descendants of slaves saying, quote: I don't think reparations 
for something that happened 150 years ago for whom none of us 
currently living are responsible is a good idea. We have tried 
to deal with our original sin of slavery by fighting a Civil 
War, by passing landmark civil rights legislation. We elected 
an African American President.
    There is an unconscionable denial and lack of knowledge in 
this Nation about the true nature of facts and current 
consequences of the transatlantic slave trade and the 
enslavement of African American people upon which American 
democracy, prosperity, and White privilege are founded.
    Mr. Coates, based on your monumental essay in The Atlantic 
Magazine, ``The Case for Black Reparations,'' can you please 
describe briefly some of the continuing impacts and vestiges of 
the enslavement era on living African Americans today?
    Mr. Coates. First of all, one of the things I tried to make 
clear in my testimony is that we perceive the era of 
enslavement, the era of Jim Crow, and in fact, I would actually 
even add the era of mass incarceration as separate things that 
are somehow not tied to each other.
    The greatest damage that enslavement did, besides the 
economic damage, besides the normalization of torture, of rape, 
besides the normalization of treating people as though they are 
things, is the institution in the American mind that Black 
people are necessarily inferior.
    In 1865, when Black people were emancipated, that belief 
did not magically dissipate. It proceeded for 100 years 
afterwards. It proceeded, as I said in my testimony, well into 
the lifetime of many panel members, Chairman--sorry, Majority 
Leader Mitch McConnell, and many of the people in this 
audience. So it is not a matter of the past. These things are 
linked. It has been said, I think, or alluded to repeatedly 
throughout this conversation that somehow wealthy African 
Americans are immune to these effects. But in addition to the 
wealth gap that is cited, one thing that folks should keep in 
mind is that quote/unquote ``wealthy African Americans'' are 
not the equivalent of quote/unquote ``White Americans'' in this 
country. The average African American family in this country 
making $100,000, you know, decent money actually lives in the 
same kind of neighborhood that the average White family making 
$35,000 a year lives in. That is totally tied to the legacy of 
enslavement and Jim Crow and the input and the idea in the mind 
that White people and Black people are somehow deserving of 
different things.
    If I injure you, the injury persists even after I actually 
commit the act. If I stabbed you, you may suffer complications 
long after that initial actual stabbing. If I shoot you, you 
may suffer complications long after that initial shooting. That 
is the case with African Americans. There are people well 
within the living memory of this country that are still 
suffering from the after-effects of that.
    Chairman Nadler. Thank you very much.
    I yield to the gentlelady from California, Ms. Bass.
    Ms. Bass. Thank you very much, Mr. Chair and all of the 
witnesses that are here today and Representative Jackson Lee, 
for doing this legislation.
    And, you know, this is just such an important moment in our 
history. But I just wanted to spend a couple of minutes talking 
about how we have viewed this issue and why we are even having 
this hearing today. It is so important because I believe that, 
in this country, we have never been able to come to grips with 
our history. We either don't know our history, or we deny it. 
When we talk about the 250 years of enslavement, we call it a 
sin. We call it a mistake. We say that it was a subset of 
Americans, not the entire Nation. We say it was inconsistent 
with the values of our Nation's founding, that it was something 
it that happened long ago, and why can't we get past it? Why 
can't we move on? Why do you keep bringing it up? Slavery might 
have ended in the mid-1800s, but apartheid and terrorism lasted 
for 100 years after that. We passed a bill on lynching last 
week. Why did we even have to do that? There was a man that was 
executed 2 weeks ago for a lynching that took place in Texas. 
There are many murders that have happened that people are still 
wondering whether or not they were lynching. We have to say 
that, in our country, we pride ourselves with our development, 
but we refuse to acknowledge that the reason we have the 
development that we do is because the first 200 years of our 
history was done with free labor. The South enslaved African 
Americans, but the North's economy flourished by that. And I 
believe that our economist explained in detail of that.
    So our fundamental problem is our ignorance of history or 
our refusal to admit it. Everyone understands the pain caused 
by people who deny the Holocaust. Deep pain is caused by this, 
and deep pain is caused by our country that cannot acknowledge 
what has happened here.
    I want to say that it should be obvious, but the entire 
Congressional Black Caucus supports this legislation. We have 
problems denying--we think that racism sometimes it is 
trivialized as behavior, as ideas, and that we are all equally 
racist because we refuse to accept the fact that racism is 
ingrained in our institutions. We say that there must have been 
something that 12 year old did to have gotten shot. We say that 
there must have been a reason that that police officer pulled 
that gun on that pregnant woman last week with her two babies. 
We don't see the connection between this because we refuse to 
admit it.
    H.R. 40 calls for the establishment of a commission. It 
does not call for checks. We trivialize reparations by saying 
that these are just African Americans that want to be paid. I 
think Mr. Coates goes into details about reparations meaning 
much more than that.
    And then, frankly, when I hear from my colleagues on the 
other side of the aisle that we need to be encouraged to work 
harder, to pull ourselves up by our bootstraps, that we can 
actually achieve, that that is the only thing that is the 
problem, and then to talk about the Democratic Party, I think 
maybe people don't remember who Fannie Lou Hamer was? Black 
folks fought the Democratic Party. Nobody acts as though the 
Democratic Party was not a racist party until there was a 
movement that fought for justice.
    I am glad that we are having this hearing today. I thank my 
colleagues for doing it. I look forward to this legislation 
moving to the floor. And, once again, I just want to emphasize, 
at what point, can we in this country have a conversation about 
race? We will never get past it until we can have the 
conversation, and the conversation begins with the commission. 
Thank you.
    Mr. Cohen [presiding]. Thank you, Congressman Bass. And I 
would now like to recognize----
    Mr. Glover. Excuse me, let me have a word, please. Because 
I wear several hats and certainly most people consider me the 
one hat and know me from the hat I wear as an artist and an 
activist and an artist. But I worked for the city government 
for 6 and a half years in 1971 in the Model Cities Program in 
San Francisco, California. I was at the mayor's office and 
Joseph Alioto. For 6 and a half years, I worked both in the 
Mission and in the African American community at that 
particular point in time. And most of that was the realization 
of what we were--the programs about the Great Society, the 
programs that came about. And I have seen--I saw those programs 
get eviscerated. Those programs in the sense designed to bring 
great opportunities and great hope lasted only a short period 
of time. So I certainly understand that because I have lived in 
the same community my entire life in San Francisco. My mother, 
a migrant, someone who met my father and came to San Francisco 
after World War II. They became--they had descent jobs. They 
worked for the post office in 1948. They were able to raise a 
family on that income as well. They were able to eventually buy 
a house in the same neighborhood that I live in right now. 
Also, they were part of that generation who were the first 
beneficiaries of the upcoming and ongoing civil rights 
movement. I have watched that city and worked in that city. And 
I am just talking about the city of San Francisco, this liberal 
city that has this great tradition around labor and everything 
else. We talk about Harry Bridges and what he did and 
longshoremen and bringing African Americans into longshoremen. 
And then I watched the evisceration of the cities and people's 
lives because of crack cocaine and mass incarceration as well 
right in my neighborhood, right in my family. So those are the 
kind of long-term impacts that we don't realize that happened. 
Those children who were the descendants, not only slaves but 
descendants of the those, the generation who had the 
opportunities after World War II, those children did not have 
the same opportunities.
    And now those children are abandoned as adults in that 
city, in that great city.
    So I think we have to kind of look at this, as people said 
often, that this is just a study of look at racism and all of 
its manifestation and can't--in terms of gentrification as 
well. I was in the Fillmore area in 1966 going to Western 
District Community Organization meetings, where people were 
desperate to find different ways in which they were not being 
removed from their communities. These are real issues that 
happened. They are longstanding issues that go back and find 
themselves resonating in slavery and going further--all the 
material that we have, all the books that we have now, all the 
studies that have been done has outlined that. We have to begin 
to say--to tell ourselves the truth. James Baldwin, the great 
writer, once said, if cannot tell ourselves the truth about the 
past, we become trapped in it.
    And that is what we are. We are trapped in it. This country 
is trapped in the truth--not telling the truth. And we got to 
find, we got to start--that is the leverage right there. Begin 
to we talk about any of it. We talk about education, Bob Moses 
has talked about math literacy is important. And most children, 
particularly children of color, aren't prepared for math 
literacy. We have to talk about education and preparing our 
children for 21st century citizenship. And that is what it is. 
And this is what this is talking about. If we raise the boat of 
those people who have been most disadvantaged historically, we 
raise--we create a better country here.
    Mr. Cohen. Thank you, sir. Thank you very much.
    Ms. Malveaux. Chairman Cohen, may I----
    Mr. Cohen. No. We can't. We are not going to get out of 
order. I gave--no, ma'am. I gave Mr. Glover great respect. But 
the panel and the way we operate is we go from member to 
member, and they can ask questions. And if somebody--the next 
person wants to ask you, they can ask you.
    Representative Cline, you are recognized for your 5 
minutes.
    Mr. Cline. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here.
    Mr. Coates, I followed your career with interest.
    Mr. Glover, I am a big fan.
    And I want to thank the witnesses for their remarks.
    Mr. Hughes, I wanted to ask if there was anything that was 
said previously that you would like to respond to.
    Mr. Hughes. Yeah, I would like to address myself to the 
comments made on the subject of us not knowing our history, of 
us not having told the truth about slavery and Jim Crow.
    It strikes me that this is not exactly true. Mr. Glover 
mentioned all of the studies and books that have been written 
on the subject. I would argue, in fact, that in the 10,000 year 
history of slavery on every continent, there is not a single 
example of slavery that has been more studied than slavery in 
America from the 17th century to the 19th century. So it is 
actually not true that we have not told the truth, that we 
don't know our history.
    Moreover, in the past 50 years, if we are talking about 
what scholars in America--in the American social sciences have 
directed their attention towards, it is hard to find a subject 
on which more books have been written that has been more 
studied than racial inequality.
    Thank you.
    Mr. Cline. Thank you for that.
    Mr. Owens, I followed your career with interest as well. 
Can you speak to, specifically your career in the NFL--and 
also, you spoke of your family--what was the greatest legacy or 
lessons from your family that brought you to the opinions that 
you hold now?
    Mr. Owens. The greatest legacy from my dad who served in of 
war, World War II, came home. Could not do his postgraduate 
down in Texas because of Jim Crow laws. So he put out a lot of 
letters. Ran across of a box when he passed away of hundreds of 
rejection letters. He used that as motivation because he 
eventually got to Ohio State where he got his Ph.D. and went on 
to become a very successful entrepreneur, college professor, 
researcher, and someone who was very proud of our race. He 
reached back to his very last days to the young people giving 
him hope that this country, they can succeed and if they really 
wanted to. And if they pull themselves up by their bootstraps, 
worked harder than the next guy--that is not a racist deal, 
guys. That is the American way. We work harder than the next 
guy.
    The greatest legacy from him was my belief that I would do 
everything I could to make sure he was proud that I held his 
name. The greatest thing from my mom--from my dad is I never 
ever even thought about disrespecting Mom.
    We have come to a point where we allow our young men to 
disrespect women. I think there is no consequences. We are not 
going to develop men if we allow our boys to call our women 
baby mamas and everything else in the book and not pull them 
aside and tell them it is wrong.
    It is about policies, guys. It is not about 200 years ago. 
We have kids in the State of California that--there is against 
anti-choice, by the way. These kids are stuck in these failing 
schools because we have a party that is against them moving on 
to someplace else. We have a Davis-Bacon Act, 1932, put in 
place specifically to help to stop Blacks from competing 
against White unions, still in place today. You wonder why we 
have so high unemployment, why our business ownership has gone 
from 40 percent down to 33.8 percent.
    By the way, a higher minimum wage is not as good as it 
sounds. It keeps our young people out of work. It keeps them--
they are too expensive to hire even to get started if you have 
high minimum wage. Now, the unions benefit from that, by the 
way.
    And open borders hurts our race, period. Period. It is 
commonsense. If you have non-Americans coming in while working 
for lower wages, we get hurt first. We got to understand this. 
And let's get this thing right, guys. It is about our people, 
my race. We are just as good as anyone else out there given the 
right opportunity and not told that we can't. But us raising 
our kids and telling them that, because of their skin color, 
they are already against every opportunities out there, it is 
stealing their dreams. We can't afford to do that.
    So my parents' generation, the Greatest Generation in the 
history of mankind, told us to dream big and wipe out those 
other guys that are working harder and showing them they are 
wrong, and we did that.
    Mr. Cline. Thank you for that.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cohen. Thank you, sir.
    Mr. Raskin is now recognized for 5 minutes.
    Mr. Raskin. Mr. Chairman, thank you very much. I am looking 
for some points of----
    Mr. Cohen. Excuse me, Mr. Raskin. I am sorry.
    I saw Mrs. Lawrence here earlier, and then she disappeared, 
and she is back. And I want to recognize the distinguished--I 
am sorry. Mrs. Lawrence was here, and she is gone. She was 
sitting there. And Mrs. Beatty is here now.
    So, Mrs. Lawrence, thank you.
    Representative Raskin, you are on.
    Mr. Raskin. Thank you, Mr. Chairman.
    Both sides seem to agree this is something that should have 
been done long ago. I think I heard Mr. Hughes say that, and I 
think, Mr. Coates, you said that. There was an effort after the 
Civil War in Reconstruction organized around a field command I 
think President Lincoln issued to redistribute 40 acres and a 
mule, and it never happened. And it was interrupted. And then 
we had a period of a decade of active national investment in 
Reconstruction in the South that was undone by white supremacy. 
And so we were never able to follow through on the political, 
economic, and social promise of Reconstruction.
    So, given this history and the distance between now and 
slavery and then the continuing injuries of racism with Jim 
Crow and with the sharecropper system and the criminalization 
of the African American population after the Civil War, what--
Mr. Coates, let me ask you. What are the differences in 
approach that have to be taken now given the distance of time 
that has lapsed than if it had been done completely right after 
the Civil War and Reconstruction had been allowed to run its 
course for a period of several decades before the so-called 
redemption took place?
    Mr. Coates. Sure. If I could just address the notion of 
slavery having been well-studied and understood.
    I think my fellow panel member is quite correct that, at 
this moment in history, it is certainly true that the system of 
enslavement in America has probably been the most studied in 
America. That is not particularly surprising given the 
extensive and revolutionary and wide system of universities we 
have in this country, which is also probably unprecedented and 
also probably a new development also.
    But I think, even given that, it is worth noting the lack 
of penetration that those studies have had into the American 
mindset. I don't know if it is still here, but relatively 
recently, there was a statue garden here in the Capitol that I 
believe had statues of General Lee and Alexander Stephens. And 
one has to ask, if, in the Capitol, people understood the 
history of this country, why there would be statues honoring 
people who led a revolution or destroy it? One would have to 
ask, if that history were well understood why, and for 
instance, the State of Mississippi there still was a flag 
flying dedicated to people who tried to destroy this country? 
Why only a couple of years ago we saw the murder of Heather 
Heyer, and that was precipitated by a movement to erect a new 
group of statues and remove the statue of General Lee?
    And so, while it has been well studied, I don't know that 
Americans quite understand it. At this very point, you can get 
at least a plurality of White Americans who will tell you that 
the Civil War was about States' rights with no conversation 
about States' rights to do what.
    In terms of the differences in approach today, what I would 
say is that is why we need H.R. 40. That is exactly what we are 
here to discuss in the first place. I am very skeptical of the 
notion that one person should stand up and speak for our 40 
million African Americans, that one person should stand up and 
speak for all the generations that came before me.
    I think the proper thing to do is, A, for this body to 
convene a committee and convene a discussion to study exactly 
what the damage was and what potential remedy might be offered 
and also to convene conversations around the country.
    Just attendant to that, I also would like to say there has 
been a lot of, shall we say, shade throwing on the notion of 
cutting checks. I just want to say, you know, in the spirit of 
openness, in the spirit of actual study, I don't think we 
should necessarily rule out cutting checks. There are people 
who deserve checks. And I think that actually should be part of 
the study. We aren't ruling out any solution. I don't think we 
should rule out that one either.
    Mr. Raskin. Well, thank you for your emphasis on what H.R. 
40 will do. It will set up a commission to study all of the 
different dimensions and ramifications of reparations and what 
it means, because I think one of the productive aspects of this 
conversation has been that we have learned that it is not just 
about cutting checks although it is not to the exclusion of 
that. But it is about rethinking our relationship to this whole 
history, which has been so injurious to so many of our people.
    Let me focus on the question of the congressional role 
because I am moved by the fact that it is Congress that is 
taking this up seriously. As we said before, enslaved Americans 
helped to build the Capitol where Congress meets. Enslaved 
Americans helped to build the White House where the President 
sleeps. And there was a slave market across the street where 
the Supreme Court stands today. And, of course, that was the 
Supreme Court that gave America the Dred Scott decision in 
1857, and the Supreme Court that gave us Plessy v. Ferguson in 
1896, and recently gave us Shelby County v. Holder and Shaw v. 
Reno in the undoing of the modern civil rights movement, the 
modern Reconstruction.
    But my question here is, why is it that Congress should be 
the one to act? You would think that we would rely on the 
Supreme Court for justice in the country. But people are coming 
to Congress to act. And, you know, perhaps, Reverend Sutton, 
let me come to you about that. By the way--and I do have to 
identify the fact that we have two great Marylanders here 
today. One is Mr. Coates and one is Reverend Sutton, and we are 
very proud of both you.
    So, Reverend Sutton.
    Rev. Sutton. First off, let me say that I am a bit dismayed 
and appalled that my brother panelist here, when we are talking 
about reparations goes to family and all--of course, we are all 
hardworking, and, of course, we are for families. I just don't 
want the impression to be that if those are for reparations 
don't know about the role of family.
    Mr. Raskin. While we are on that point, let me just ask 
you----
    Rev. Sutton. Okay. And why Congress. Because you are 
leaders and legislation helped to get us into this mess, 
legislation has a role. The church has a role. Our educational 
systems have a role. And maybe even the Supreme Court and 
hopefully the President.
    But your role is to redress some of what your predecessors 
did in this Congress. And so I think you are the only body that 
can call for this commission that desperately needs to happen.
    Mr. Cohen. Thank you, Reverend.
    And thank you, Mr. Raskin.
    I would now like to recognize Mr. Gohmert from Texas for 5 
minutes.
    Mr. Gohmert. Thank you. And I appreciate the witnesses 
being here.
    And, Mr. Glover, any time I see your name listed as being 
in a movie, I normally say that is one I will enjoy and 
appreciate your body of work throughout your career. You have 
provided a great deal of enjoyment, even in the dramas, so 
thank you for that.
    I had a colleague mention an execution in Texas. And that 
was--the incident arose down in Jasper where three White men 
drug a Black man to death. Now, I have supported the death 
penalty. I was a judge who was--assessed the death penalty. And 
I wouldn't have a problem with a law that said, in a situation 
like that, the victim's family can choose the manner and means 
of carrying out the death penalty. But we don't have that law.
    That case was also heralded as the poster case for needing 
hate crime legislation when, actually, under the hate crime 
legislation that was so heralded in the past, there is no death 
penalty. The only way these guys got the death penalty finally 
after 21 years--the most culpable guy finally was executed here 
recently; he should have been. The death penalty I hear 
constantly being referred to as being racist. I know, in my own 
court, the statistics will show that I had three individuals 
charged and tried for capital murder. Two were White; one was 
Black. Based on the jury findings, I assessed the two White men 
to be put to death, and the Black gentleman was sentenced to 
life for his murder. The hate crime laws had nothing to do with 
actually carrying out the executions in the appropriate case as 
they were in Jasper.
    I also heard a colleague talking about it is critical to 
know our history. And I have some screenshots here from the 
Democratic Party's history that says our history. And I ask 
unanimous consent to submit that for the record.
    And it is interesting--and also, this Wall Street Journal 
article, ``The Democrats' Missing History.''
    Mr. Cohen. Without objection, it will be entered.
      

                  MR. GOHMERT FOR THE OFFICIAL RECORD

=======================================================================

Mr. Gohmert for the record: https://www.wsj.com/articles/
SB121856786326834083.
    Mr. Gohmert. I'd ask unanimous consent on both of those, so 
thank you, Mr. Chair.
    There is no reference in the history of the Democratic 
Party platform supporting slavery. There were six of those from 
1840 to 1860. No reference to Democratic Presidents who owned 
slaves. There were seven from 1800, 1861. There is no reference 
to the number of Democratic platforms that either supported 
segregation outright or were silent on the subject. There were 
20 from 1868 to 1948. No reference to Jim Crow laws nor is 
there reference to the role the Democrats played in creating 
them. These were the post-Civil War laws passed 
enthusiastically by Democrats in that pesky 50-year part of the 
DNC's missing years.
    Also, there is no reference that three-fourths of the 
opposition of the 1964 Civil Rights Act, what came in the House 
from Democrats, or that 80 percent of the nay votes in the 
Senate came from Democrats. There is certainly no reference to 
the fact that the opposition included future Democratic Senate 
Leader Robert Byrd from West Virginia; former Klan member of 
Tennessee, Senator Al Gore, Sr., father of Vice President Al 
Gore. And last but certainly not least, there is no reference 
to the fact that Birmingham, Alabama, public safety 
commissioner, Bull Connor, who infamously unleashed dogs and 
firehoses on civil rights protesters was, in fact, a member of 
both the Democratic National Committee and the Ku Klux Klan.
    So it is important that we know our history and we not 
punish people today for the sins of their predecessors in the 
Democratic Party.
    Voice. You lie.
    Mr. Gohmert. I just stated all facts. And, again, we have 
people who are denying history. That is not helpful to our 
discussion.
    But, Mr. Owens, I would ask you, understanding that today's 
claim that the Republicans are the party of racism, what do you 
think your great, great--your great-grandfather Silas would 
have said to someone who claims the Republicans are the party 
of racism?
    Mr. Owens. Well, my great-great-grandfather lived through 
that period, and he wouldn't have said that because, at that 
time, all Blacks were Republicans because that was the party 
that gave them freedom.
    Mr. Gohmert. Let me just ask: Have you suffered for taking 
these conservative positions?
    Mr. Owens. Well, I guess what it comes down to is--I don't 
think I have suffered at all. I am thankful for growing up in 
an age where--I was the fourth--of the fourth Black American to 
be given a scholarship at the University of Miami. I was one of 
the first Blacks to integrate in the schools. So I understood 
exactly what racism looked like and how it felt.
    But my mom said one thing very--I remember specifically 
that I was kind of going through this phase. She said, 
``Burgie, make sure you don't let somebody else's problem 
become yours.'' In other words, ``Burgess, don't let a racist 
let you become one.''
    The other thing is that my dad taught us very simply to be 
a leader. If it was right, do it. If it is wrong, don't. I love 
my country. I love my race. I love my family. And that becomes 
all the other stuff of being accepted or liked. It makes no 
difference to me.
    We are at a very, very important point in our country today 
where Black Americans are waking up. And I know that a lot 
might not agree what I am saying. That is okay. Just listen. 
And with time, let it simmer a little bit. Look around and see 
where our misery is being done today. Our misery is in the 
urban communities throughout our country where our kids have no 
hope, no jobs, no family, no dad, and no one to tell them they 
can make it.
    If we understand that and we take responsibility that every 
single generation has done in our past to make sure the next 
generation feels better about their opportunities then less, we 
are failing them big time if we don't change our narrative. 
These kids can do it. We just have to believe in them, give 
them opportunities, and tell them man up, woman up, it is okay 
if things get wrong. Things go sideways for every person that 
lives or God wouldn't be a fair God. When you go sideways, 
stand up, man up, woman up, and let's get back on the track and 
get after your dreams and get this thing done with.
    Mr. Cohen. Thank you, Mr. Owens.
    Mr. Gohmert. I appreciate----
    Mr. Cohen. The time is up for Mr. Gohmert, and we are going 
to move on and----
    Mr. Gohmert. I thank all of you for being here today.
    Mr. Cohen. First, I would like to recognize Congressman 
Plaskett who is with us today.
    I would also like to have another reminder to the crowd: 
The next person that screams out may be asked to be removed. We 
have got to have order. So keep it together.
    Representative Swalwell, you are recognized for 5 minutes.
    Mr. Swalwell. Thank you, Chairman.
    Thank you, Ms. Jackson Lee, for your leadership on this. I 
am a proud cosponsor of H.R. 40.
    And I have listened to some of my colleagues, Mr. Glover, 
tell you how much they like your movies. And I have to say: We 
didn't come here to talk about your movies. We came here to 
talk about your activism. I like your activism. I also like 
your movies. But I want to give you a chance because I haven't 
heard the other side other than tell you--that they like your 
movies, that they want to hear what you have to say on this 
important issue.
    The Senate majority leader has said that no one living is 
responsible, and there is no way to compensate for this. And he 
is suggesting that there is no way to pay for it.
    And I guess I would ask you, Mr. Glover, would you agree 
that if a Black college graduate is paying on average about 
$10,000 more in student loan debt, we are paying for it? Would 
you agree that if the Black population is disproportionately 
incarcerated to any other population, that we are paying for 
it? And would you believe and agree that if the healthcare 
costs for a Black family are extraordinarily higher than for a 
White family, that we are actually already paying for it?
    Mr. Glover. Statistics would suggest that. But I think 
there is such--a discussion that we seem to miss the point on 
and often as we talk about the different issues that we deal 
with in this country and their intersectionalism, their 
interconnectedness, the issue, whether we are talking 
historically or we talk about how those things manifest 
themselves in our policy, what we do today in a sense.
    And I think a part of what we don't do today is to evoke 
the kind of spirit that was so essential in this country's 
formation, in this country--in the moments--and when there were 
radical changes in this country.
    We often talk about the right for organized labor to 
organize, the impact that they had on the African American 
community and to begin at some point in the 20th century, past 
the end of World War II, the benefits that were accrued at that 
particular point. And those people who struggled for that, 
whether it is Eugene Debs who struggled against--or whether it 
is Emma Goldman or whether it is W.E.B. DuBois and all the list 
of activists and men and women who brought about the kind of--
who raise the bar with respect to, I think, our sense of 
revolutionary purpose in that sense.
    And what I think, with the incredible wealth that this 
country has and the resources this country has and the capacity 
to do what it had once done, when I came into the world, there 
were opportunities that were different than previous 
generations. There were more schools that were built instead of 
prisons. There were more opportunities that were--for 
employment and new opportunities for employment.
    Mr. Swalwell. So we are going backwards.
    Mr. Glover. There was more infrastructure development. And 
all those things played a role in our own ability, in our own--
my own enhancement, personally, and collectively as well.
    And so I think when we talk about them--when I went to 
college, certainly, I didn't have the debt responsibility that 
students have now. And certainly there are ways in which we can 
mediate that. Certainly, there have been arguments about 
whether college should be free, whether we should build more 
colleges, et cetera, et cetera, and provide different 
opportunities.
    But we also have the transformation of a society that was 
an industrial society, industrial workforce, and now that 
depends directly on different forms of intelligence and certain 
technology. And that is a place where those who are most 
vulnerable across the board have not been--they have not been--
how you say, they have not benefited from those new 
technologies.
    Mr. Swalwell. So----
    Mr. Glover. And so what I am saying--so the picture that I 
am painting is a much larger picture, you know, within the 
dangers that we have, relative global warming and climate 
change and all the other issues here now. We can say right now 
the health condition of African Americans is pretty desperate 
in places. They live in toxic situations. We can talk about 
environmental racism that we haven't talked about, and maybe 
that would be a part of H.R.--the study that we talk about 
currently about H.R. 40.
    So there are various things. So to begin to kind of like 
codify this in a way in which I find makes sense, I think the 
broader look at this study would also reveal some other things 
about what can happen and what the possibility is.
    It seems as if we--if Dr. King said the imagination is the 
incredible vehicle for us, Albert Einstein said our imagination 
is more important than knowledge itself, then certainly the 
capacity that we have in terms of imagining a better future 
for--certainly for African American children and African 
Americans, the descendants of slaves, would we also would 
imagine a better opportunity for this country as well.
    Mr. Swalwell. Mr. Chairman, can I just say to your--I 
wanted to put this on the record.
    I was not in the House when your resolution came up for a 
vote. But I would have voted to support it. I am sorry that it 
is something our government was responsible for. And Mitch 
McConnell may be right that no one alive is responsible for 
what happened then, but everyone alive is responsible to do 
something now.
    Thank you.
    Mr. Cohen. Thank you.
    Mr. Reschenthaler.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    I would like to yield to my ranking member, my colleague 
from Louisiana.
    Mr. Johnson. I thank my colleague.
    I wanted to pitch it back to Mr. Hughes for a moment.
    In spite of your relative young age, you have had some 
valuable experience publicly discussing sensitive issues of 
race and culture. And I just wonder what advice you would give 
to young people who are thinking about this. As Mr. Owens said, 
everybody ought to let that marinate a little bit.
    As they begin to think about it, it has been suggested this 
morning that ignorance of our history is a big part of this, 
that we--everybody across the country--I mean, large numbers, 
we suffer from that. What is the response and what advice do 
you give to young people?
    Mr. Hughes. Well, I would urge people to observe the 
distinction between understanding history and responding to 
history. You can understand history, and it can still be the 
case that you have a range of possible responses in front of 
you. So addressing myself to Mr. Coates' comments before, if I 
understand them, the idea is, if we really understood our 
history, then we wouldn't keep Confederate statues up, for 
example. Therefore, the fact that they are still up implies 
that we don't really understand it in our bones.
    And that, I think, highlights a distinction between how I 
think about this issue and how other people on the panel think 
about it. For example, there was a poll in The Washington Post 
last year which found that 30 percent of Black Virginians 
wanted the Confederate statues to stay up. Now, I don't think 
they wanted that because they hated themselves. I don't think 
they wanted that because they didn't understand their own 
history. Perhaps they were people who just didn't like seeing 
their communities change. There are many people like that. And 
I respect that, even though I myself would be fine to see those 
statues come down.
    So the point here is that our response, whether or not you 
agree with it, is not itself evidence that we don't understand 
our history. And we can have two separate conversations. One 
is, what happened in this country? What was done to Black 
people? What harm was incurred? And the second conversation is, 
what do we do about that? And that second conversation is--the 
answer to that second conversation is not self-evident from the 
answer to the first.
    Thank you.
    Mr. Johnson. I see Mr. Owens making notes over there. I 
know you have a lot to contribute on this subject. You do a lot 
with young people.
    What would you add to that?
    Mr. Owens. I would, first of all, say we live in the United 
States of America, the greatest country in the history of 
mankind, a place that every person who comes here that applies 
themselves to the rules, to the standards in which we all can 
succeed, treat people right, be honest, dream big, dream above 
your obstacles, and get back up when you fall down, then they 
can make it.
    History is there for us to find out and to gauge ourselves 
how far we have come. Fifty years ago, guys I was fighting on 
the football field as being one of four Black athletes are some 
of my best friends on Facebook today because we have all grown 
up. We have all understood that the message of our fathers was 
incorrect. And we are doing our very best to make sure we be 
the better people as we move forward.
    This country, every generation works to find its better 
self. As long we don't reach back and define ourselves by the 
worst of ourselves. And that is what too many people are doing 
today. We have Americans in this country, and we will call them 
elitists, that live the American Dream, put their kids in the 
best colleges ever, drive every place you can think of, not 
having any issues, are going to have a great retirement, and 
then tell the rest of our race they can't do it. Why? Because 
the White man won't let them.
    I personally think that is an insult to my parents, my 
grandparents. I did not grow up around White people until I was 
16 years old. And I was so proud to be in that community I grew 
up in in Tallahassee, Florida, because we were kicking butt. We 
were leading our kids. They were teaching us how to be proud 
Americans.
    Last point, I went to the University of Miami to study 
biology. By the time I was in my junior year, I decided I 
didn't want to do biology anymore. You know why I stayed with 
it? Because when I was leaving high school, there was a White 
guy who said I couldn't do it. And my parents taught me: If 
they say you can't, you do it. I lived in the library to prove 
that guy wrong. That is the way our race was, and that is the 
way our race needs to be again. What we can achieve, nothing 
about what has happened to us in the past. What strangers did 
to other strangers 200 years ago has nothing to do with us, 
because that is not in our DNA.
    Thank you.
    Mr. Johnson. Thank you.
    Mr. Hughes, I have got 15 seconds. Let me give you one more 
question. You can answer it, I hope.
    You wrote an article a while back entitled ``Black American 
Culture and the Racial Wealth Gap.'' And you talked about 
specifically the city of Boston. And there was a disparity 
within the Black community. And you pointed out that Black 
Bostonians of American ancestry had a median household wealth 
of $8 in that but Caribbean ancestry had $12,000 of wealth, 
talks to the disparity.
    I just wondered if you would comment on the implications of 
that.
    Mr. Hughes. Well, this just goes back to the point I made 
before about disparities even within races being normal. So, if 
you go to--if you look at Census figures for White Americans 
and break it down, instead of talking about, quote/unquote, 
White people into White people of French ancestry, Russian 
ancestry, Swedish ancestry, you will find all kinds of 
disparities that, by definition, cannot be caused by some kind 
of systemic discrimination. Likewise, with, quote/unquote, 
Black Americans, it is a very diverse group. Something like 10 
percent of Black people in this country are immigrants from 
places like Jamaica, Haiti, Nigeria, Ghana, and if you look at 
each individual group, you will find various disparities in 
wealth, in income, in crime rates, that, by definition, can't 
be explained by either race or racism.
    So my point in citing that disparity is to upset the notion 
that if society were fair, evidence of that would be equal 
outcomes between all groups because there are so many 
differences historically in groups themselves geographically 
just in terms of median age, right? The average Black person in 
this country is 10 years younger than the average White person. 
So, when you are comparing Blacks to Whites, that is just one 
of the many ways in which you are not actually comparing apples 
to apples. So my point in citing that was just to upset that 
lazy assumption that we make about socioeconomic and other 
outcomes.
    Mr. Johnson. Thank you.
    I yield back.
    Mr. Cohen. Thank you, sir.
    I next recognize Ms. Scanlon for 5 minutes.
    Ms. Scanlon. Thank you.
    Before coming to Congress just last November, I was a 
public interest attorney, and so my work focused on access to 
justice, access to the ballot, and access to a good public 
education. And all three forms of access, as we have been 
discussing here today, are too often denied to people of color 
and poor people. And, unfortunately, as we have discussed, 
there is a disproportionate representation of people of color 
among poor people in this country.
    So I wanted to ask some questions to talk about the 
relationship between the structural legacy of slavery and 
racism and a couple of the issues that are top of mind in my 
district. So one of them--and thank you for mentioning it, Mr. 
Glover--is environmental justice. The city of Chester is it my 
district. It is a majority African American population, and it 
is surrounded by heavily polluting industries.
    Just Sunday night, CNN's ``United Shades of America'' 
featured the incinerators there. One in four children, African 
American children, in my district have asthma largely as a 
result of these environmental factors. So we have got this 
environmental justice issue we are dealing with. We have got 
schools issues. Pennsylvania has one of the most wildly 
inequitable public school funding systems. And if you go to the 
schools in Philadelphia and some of the other majority African 
American school districts, you see schools that are over 100 
years old. And, literally, visiting them, there is asbestos and 
lead paint dripping into the water fountains that the children 
have to use.
    And then a third issue, which we have also touched on, is 
our policing and criminal justice issues where African American 
folks are locked up at, what, five times the rate of White 
people.
    So how does the reparations conversation help us drive 
forward those issues? How can I link it for folks in my 
district to the issues they are facing daily?
    And if I could ask Revered Sutton and then Mr. Coates to 
maybe address that.
    Rev. Sutton. Thank you.
    Those issues are linked. We have to make a distinction 
between personal responsibility and social responsibility. I go 
into the high schools in Baltimore as well. And we even sponsor 
programs to convince high schoolers: You can do this. You can 
succeed. You can make it. That is personal responsibility.
    But when you go in the schools and you see the conditions, 
you see the quality of the teaching and all that, you know that 
they don't have the same shot as those who live 10 miles away 
or 5 miles away in their school systems.
    And so one of the roles of the Congress is to make sure 
that there is a corporate responsibility that we all have for 
all of our citizens. We can all celebrate the tremendous 
strides that have been made in racial attitudes in this 
country. We are proud of the accomplishments of many African 
American individuals. I am proud of my accomplishments. I have 
worked very hard, and my brothers and sisters.
    But for the millions of descendants of slaves who are 
trapped in this pernicious cycle of hopelessness, poverty, and 
rage due to their real experience of inequities, segregation, 
inferior schools, redlining and the like, the widespread 
assumption that everyone can pull themselves up by their 
bootstraps is a lie. It is a falsehood. And that is one of the 
things that this legislation wants to address.
    Thank you.
    Ms. Scanlon. Thank you.
    Mr. Coates.
    Mr. Coates. I think, frankly--and this is going to get 
repetitive--it comes back to the weight of history.
    I heard it said just earlier, for instance, that the 
matters which face us today have nothing to do with strangers 
from 200 years ago. That is not the attitude we take toward 
George Washington. That is not the attitude we take toward 
Abraham Lincoln. We take that attitude to history that we are 
ashamed of. We don't take that attitude toward history that we 
are proud of.
    Again, as I said earlier, answering another question, one 
the great weights of 250 years of enslavement in this country, 
which is longer than the 150 years of freedom that African 
Americans have enjoyed, is the codification of the idea of 
inferiority among Black people and not just in the culture but 
in the very laws themselves.
    And even after those laws are repealed, as well they 
should, the idea still remains, and it is passed on. And so, 
for instance, it was just said by one of my fellow committee 
members that there was a difference between the incomes of 
Caribbean Black immigrants and native Blacks. This is true.
    It is also quite understandable. People who come to America 
to pursue opportunity generally tend to do better than the 
masses of a whole group that have been here. This is true of 
all immigrants. So this is not particularly surprising. But 
what happens when you look at that second generation? What 
happens when you look at that third generation of Caribbean 
Blacks? In fact, unlike all other groups, they quickly become 
African American Blacks in terms of their other statistics. Why 
is that? It is the weight of history. It is the implicit idea 
that is codified in our laws, in our criminal justice system, 
in the very places that we live to this very day. There is no 
way to get out of this. There is no way of escaping this 
without a direct confrontation, without H.R. 40, the very 
reason we are here.
    Ms. Scanlon. Thank you very much.
    Mr. Cohen. Thank you, Ms. Scanlon.
    Before I go to my--I would like to recognize Mr. Wade 
Henderson who is here. He was the president of the leadership 
conference on human and civil rights and a great hero for many 
years. Thank you for your attendance and your years of work.
    Mr. Hilary Shelton was here earlier, and they kind of were 
a team. He was the NAACP. And he left.
    Ms. Dean, you are recognized for 5 minutes.
    Ms. Dean. Thank you, Mr. Chairman. And I thank you for 
having this hearing.
    As troubling as this topic is, I can't tell you how glad 
that we are here today. I can't tell you how glad that this 
conversation is taking place. So I thank my colleague from 
Texas, Ms. Jackson Lee, for her extraordinary tenacious 
leadership on this legislation. We are here to acknowledge the 
terrible wrong in history, to recognize the continuation of 
those injuries, and that is one area I want to examine quickly, 
if I can, and to discover a remedy to these atrocities. Some 
measure of healing for this country.
    So if I could take a look in the time that I am allotted 
two things. Mr. Coates, I wanted to ask you about the ongoing 
predatory practices. I happen to also be a member of the 
Financial Services Committee, and so we have examined some of 
the practices, for example, by Wells Fargo in predatory 
subprime lending in the African American community. Because too 
often we hear that this is a thing of the past. This is not 
something that has happened today. There is not an ongoing 
problem. You are dealing with something that is past. It is not 
past. The discrimination, the atrocities continue.
    So if you could help me with the predatory practices. And 
then I wanted to try to lift it a little after that, because I 
loved what you said, Right Reverend, that it is important for 
our White brothers and sisters. We need this as much if not 
more for healing of our soul, healing of the soul of the 
country.
    And, Ms. Browne, you talked about the liberating power of 
having this conversation and taking a look at all of this.
    So, if we could talk about ongoing predatory practices and 
discrimination, and then maybe take it to the other side.
    Mr. Coates. Sure. As I was saying earlier, it is like any 
other injury. There is the primary effect of the injury, and 
then there is secondary and tertiary effects of that injury.
    African Americans have a history of segregation in this 
country. What that means is not merely living separately from 
Whites. It means living separately from Whites for the explicit 
purposes of denying certain benefits and certain funding and 
certain resources to Black people.
    In the case of the housing history in the 20th century, 
what that meant was that, for long periods of time, while this 
country was making access--making available to middle class and 
working class White families low interest loans, the 
possibility of home ownership, which had not been available in 
the previous preceding decades, Black people were completely 
cut out of that process.
    But still, there was that dream of buying a home. And so 
what that big gap left was for predatory lending to come in, 
illegitimate lending, that did not enjoy the imprimatur or the 
backing of the FHA to come into Black neighborhoods and make 
loans under conditions that were, to say the least, onerous. In 
some cases, Black folks didn't even actually own the homes. 
This practice of--sure.
    Ms. Dean. Contract lending.
    Mr. Coates. Contract lending, yes.
    Ms. Dean. Could you give us a quick definition of that?
    Mr. Coates. The basic idea of contract lending, because I 
don't have access to the normal routes of banking to buy a 
home. And so a contract lender comes in and pretends to 
actually sell me the home and gives me all the responsibilities 
of the homeowner, the upkeep, the upkeep, the maintenance, the 
taxes, et cetera, but actually holds onto the deed. It is a 
high-tech, what do you call it, rent-as-you-buy, buy-rent 
option.
    Ms. Dean. And the other practice that Wells Fargo 
participated in in a huge way in the early 2000s, 2005, as 
quoted by a former Wells Fargo loan officer, they went into 
Black communities, particularly through their churches, and 
pushed subprime lending mortgages on those folks who would have 
qualified likely for regular mortgages. And she said: We went 
right after them.
    She is a former member of Wells Fargo. Wells Fargo mortgage 
had an emerging market unit and specifically targeted Black 
churches because it figured church leaders had a lot of 
influence, and we could convince congregants to take subprime 
loans.
    That is recent. That is ongoing kinds of stuff. That is 
egregious. So anybody who says this is a thing of the past just 
isn't paying attention.
    Mr. Coates. Congressman, just really quick. The reason why 
I just keep insisting on history is the very fact that that 
group of people was vulnerable in the first place is because of 
redlining and Jim Crow. They never would have been in that 
position if not for history.
    Ms. Dean. And I apologize.
    But, Ms. Browne, if you don't mind, I am from Pennsylvania, 
so--suburban Philadelphia. If you could, talk about that notion 
of liberation as a result of looking at your own history. Can 
you tell us what that felt like and why we should argue that 
for us, and paint that picture?
    Ms. Browne. Thank you so much.
    There is so many layers to it. The part--what hasn't been 
mentioned today is the fact that race is a fiction. So 
slavery--the very concept of race and of one race being 
superior to another was invented to justify slavery. And it was 
also deployed in order to have White working class, like 
indentured servants back in the Virginia in the colonial era, 
identify with this notion of whiteness and with wealthier 
Whites rather than identify with enslaved Africans and native 
people with whom they had common cause. And so there is a lot 
of layers to this history that I think for a lot of the White 
Americans who feel like this is just an accusation and this is 
just yet another case of calling their people historically 
racist or calling them racist today.
    In my experience, the African American community is much 
more sophisticated about understanding that some of these 
dynamics, for example, with the GI Bill and whatnot, it is 
mundane complicity of White folks who are benefiting from a 
system and looking the other way. They are not necessarily 
getting up in the morning and saying, ``I want to be racist.''
    And there is an understanding of that amongst those of us 
who are in the field doing this work. So they are just, again, 
coming back to the learning of the history, it is liberatory to 
get beyond even the very concept of race.
    Ms. Dean. Thank you.
    Thank you, Mr. Chairman. I know I am over.
    Mr. Cohen. Thank you, Ms. Dean.
    Sylvia, you are on.
    Ms. Garcia. Thank you, Mr. Chairman. And, first, I want to 
thank the chairman for bringing this forward. And, of course, 
to my colleague from Houston, that we have worked for many 
years on so many social justice issues at home. It is just 
great to stand with you again in this time here on such a very 
important national topic. I am a cosponsor, and I pledge to you 
that I will work shoulder and shoulder with you to make sure we 
get this done.
    And to all the people in the audience, thank you for being 
here. I know it has been a long hearing. But I think it is 
going to be--thank you for being here. And I know you have been 
waiting, but I think the waiting will be worth it when we get 
to the end of the tunnel. So thank you all for being here.
    And, Bishop, I wanted to start with you because it really 
did warm my heart that you have some scripture notes here and 
that you mentioned Jesus.
    You know, I have a very deeply firm held religious belief 
that we really are all created equal and that we really are all 
children of God. And I want you to just pretend that instead of 
speaking to us right now that you are speaking to the average 
American, who may not have read everything that we have, who 
may not have been as attuned to this hearing, but is kind of 
wondering what this is really all about. Because as much as you 
say and others have said, that this isn't about a check. The 
bottom line is that when some people start talking about 
reparations, they think that it is just about that.
    So my question to you is, what would Jesus do about 
reparations?
    Rev. Sutton. Well, when it comes to those questions, I like 
to rely on people. I am in sales, not management. So I am not 
going to----
    Ms. Garcia. Very nice. It is a good start.
    Rev. Sutton. But the--I want to be clear: It is not just 
about a check.
    Ms. Garcia. Correct.
    Rev. Sutton. When I think of--I think about some African 
American women who are languishing in nursing homes with no 
money, no wealth. No, let's cut a check. I think about some 
others where a check would be very good. So I just wanted to be 
clear about this.
    But it is not essentially about money. It is about being 
good. There has been talk here about our Nation being a great 
Nation or to make it great again or the greatest Nation of all. 
I am more concerned about this Nation being good. Let's be 
good. Let's do a good thing.
    And if we can be good enough, then let history and let 
people around the world say: The United States is great, not 
because you can make a lot of money there, not because you can 
enrich yourself, not because of the size of your military or 
your armaments. They are great because they are good. And so I 
am here today to witness to being good about this, that there 
is some unfinished business in this Nation.
    Lastly, about the souls. In 1903, W.E.B. DuBois wrote the 
famous book, ``The Souls of Black Folk.'' I would like to see 
another book written, ``The Souls of White Folk.'' The Souls of 
White Folk in this Nation right now. What does it do to your 
soul to know that some of the benefit you get from your White 
skin and your background is not accrued to everybody? What does 
that do to your soul? And so this is a soulful act I think that 
we are talking about today.
    Ms. Garcia. Thank you.
    Rev. Sutton. And it is really going to take all of us.
    I said earlier that we have forgiven you. And that what I 
mean is we are here. We are in America. We want America to be 
good and great. Desmond Tutu, Archbishop Desmond Tutu of Africa 
said once: Without forgiveness, there is no future. We have to 
forgive one another, but that doesn't mean we stop there. We 
have work to do. And this let's for reconciliation. I wonder if 
my sister here----
    Ms. Garcia. Well, actually, I had a question for Mr. 
Coates.
    But you had to go really quickly. I had one question for 
Mr. Coates. If you wanted to add something really quick, I am 
running out of time.
    Ms. Malveaux. I am the economist on the panel, so it is a 
little bit frustrating that economic questions are being 
directed to noneconomists who I think I have some things that I 
would like to be able to say about some of this. But thank you, 
my brother, for giving me--for passing the mike. I really do 
appreciate it.
    The questions about predatory lending really need--that 
your sister Congresswoman raised really need to be dealt with, 
because it is not just--that is something that is happening----
    Ms. Garcia. If you are going to talk about predatory 
lending, could you also add--because what I was going to ask 
him, you could probably answer also, this whole history of the 
exclusion of Blacks from some of the early programs like Social 
Security and the GI Bill and others because it all is about 
economic security.
    So, if you could blend your answer, that would be great, 
because then I would use my time to get both questions in.
    Ms. Malveaux. Sure. I mean, we can go back and look at the 
minimum wage, which excluded farm workers in the South which 
were predominantly Black people, excluded domestic workers who 
were Black women. And so these folks were excluded not only 
from the minimum wage but also from the Social Security system.
    And so your comment about Black women in nursing homes is 
very pointed given all of that. I mean, we have to look at 
this--the hearts and minds questions--I am an economist, so I 
leave that to the reverend. But what I want--but my thing is: 
Let's look at the economic underpinnings of the inequality that 
exists in this country, the wealth gap that exists in this 
country, and the differences that it makes.
    Sister Congresswoman, when you talked about predatory 
lending, a third of the people who had predatory loans 
qualified for regular loans, a third of them. However, they did 
not get them because of the way that slavery, racism, basically 
segregated people. So, while it is lovely to sing Kumbaya, 
which I don't do very often, I think it is even better to talk 
about what is going on economically and the differences that 
exists because of the wealth gap.
    When a Black woman, man is arrested, absent wealth, they 
lay up in the jail for I don't know how many days because they 
don't have the home, the mortgage, to get the bail. And cash 
bail is discriminatory. And so we could just go down the list 
and talk about the very many ways that racism affects equality 
of the folks' lives.
    And with all due respect to these Kumbaya brothers over 
here who--you know, I am proud of my family too. I mean, we 
good Black people too. I have a Ph.D. I have two MBAs in my 
family. But I am not going to give you my family history.
    But--you know, but it is irrelevant. It is irrelevant when 
you are dealing with structure. I want you all Congress people 
to deal with issues of economic structure. Have an economic 
structure that has generated an inequality that makes it 
difficult for people to live their lives.
    When a ZIP Code determines what kind of school that you go 
to, when ZIP Code determines what kind of food you can eat, 
these are the vestiges of enslavement that a lot of people 
don't want to deal with. Forgive my--you know, I am kind of 
over the top. But I usually am. Those in the audience who know 
me know, you know, tick tick boom.
    But the fact is that I am gratified, Sheila, Congresswoman 
Jackson Lee, for these hearings. But I am also frustrated for 
the tone that some of this has taken because it takes us away 
from the economic underpinnings what needs to go on here.
    Ms. Garcia. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cohen. Thank you.
    Mr. Jordan is recognized for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    I yield to the gentleman from Louisiana.
    Mr. Johnson. I thank my colleague.
    This has really been a thoughtful discussion. I know we are 
nearing the end of it. We have more to go. Thanks, everybody, 
for their patience.
    I just want to touch on something that Reverend Sutton said 
a moment ago about America being good. It is good. It is the 
greatest Nation in the history of the world. There is a reason 
for that.
    G.K. Chesterton was a famous British philosopher. He 
famously said America is the only Nation in the world that is 
founded upon a creed. And he said it is listed with almost 
theological lucidity in the Declaration of Independence. And 
what is the creed? We are the first people in the history of 
the world that openly acknowledged, boldly declared that we are 
created in the image of God. And, therefore, every single 
person has inalienable human rights.
    There is a self-evident truth, the Founder said. We are 
trying to live up to that promise. As you all know, Martin 
Luther King, Jr., famously said that was a promissory note to 
future generations, and we are trying to get there.
    The honest question that we are trying to get to, is the 
payment, okay, which would be part of this, by many people's 
estimation, is that part of that attaining the ultimate goal? 
And it is a thoughtful question. It is a serious one. And I 
don't think that you should disparage the motives of anybody 
who is asking these piercing questions. And we are going to, 
and we are. You are all part of the dialogue. And I am grateful 
that it has largely been a civil discussion today, and I really 
appreciate your contributions.
    Let me go back to Mr. Owens. In a 2018 interview, you noted 
that--you said, quote: It was the Black community that led our 
country in terms of the growth of the middle class. Between 40 
and 50 percent of Black Americans became part of the middle 
class. The Black community also led the country in terms of the 
commitment of men to marriage at over 70 percent, unquote.
    I wonder if you could elaborate a little bit on what you 
attribute that to.
    Mr. Owens. Head, heart, home, hands. We were a race that 
believed in God. Very committed to the Christian faith. Because 
we did, our men believed in being the men of their household to 
provide for their kids and their wife, and they took that 
commitment very seriously. They took pride in being producers.
    The idea of me being a beggar was not an option. When I 
failed after coming out of the NFL--7 years after coming out of 
the NFL, totally humbling. But for a brief few months I was 
willing to be a chimney sweep. I was willing to be a security 
guard. That was what we were taught. Do whatever it takes to 
provide for your family. It doesn't matter. Be proud of it.
    I am proud of it now. I would never want to go there again. 
But at the end of day, that is what we were taught. We have 
now--we are turning out my race into one that is feeling that 
they are entitled to somebody else's property. We are now 
asking for something, reparation, that will get to funding, for 
something we never experienced ourselves in our lives, are not 
owed, because we have a chance, every single day, to make a 
choice. I can choose today to be more successful or less. And 
it has nothing to do with my ancestors or my great-great-
grandfather Silas other than the fact I am so proud that he 
showed me, through his example, how to overcome obstacles.
    So we need to get back to the pride that we had during the 
'40s, '50s, and the '60s as a race when we are competing 
against the White race, when we were segregated, when our money 
stayed within our community and our leadership stayed in our 
community. We weren't trying to get after somebody else's race 
to give them our business.
    We need to recognize that within our kids is our future. I 
personally believe this. Right now, we have over 60,000 of our 
youth that is incarcerated every single year. These kids, most 
of them, 85 percent, don't have fathers. We are able to get 
those kids back, give them the hope that this country give them 
a great opportunity that they can go out and build businesses 
or move their future on, they will bring us back to the abyss. 
And I believe those kids, the ones that we give hope again, 
will bring our country back from the the abyss. We need to give 
the right message first.
    Mr. Johnson. Very well said.
    Mr. Hughes, I know there is lot that has been said here. 
And I know you have thoughts on a lot of these topics. I would 
yield back to you for 55 seconds here, pitch it to you.
    What would you like to add to the conversation?
    Mr. Hughes. Oh, yeah, a lot has been said. I am not sure 
there is any no one specific thing at this moment I want to 
respond to.
    Mr. Johnson. That is great. I respect that.
    Listen, we are probably out of time for--or out of 
questions on this side. But, again, on behalf of everybody 
here, I think I speak for all my colleagues, we really 
appreciate your interest, your involvement, your patience 
today. It has been a long hearing. But I think we have had a 
thoughtful discussion. I think it is important for the country 
for us to do this, so I am grateful, and I yield back.
    Mr. Cohen. Thank you, Mr. Johnson.
    Ms. Escobar of Texas is next, 5 minutes.
    Ms. Escobar. Thank you so much, Mr. Chairman. And I want to 
just say how proud I am and fortunate I feel to be in the room 
with all of you, to be able to have this very important 
discussion, and to participate in this historic hearing. I also 
just want to quickly acknowledge and thank my sister 
Congresswoman, the Congresswoman, the gentlelady from Texas.
    Thank you, Sheila, for your incredible work and your 
passion and the dignity and strength that you bring to this 
discussion.
    And as my colleague from California Ms. Bass mentioned, 
this is a difficult conversation to have but one that is so 
long overdue.
    Dr. Malveaux, I so appreciate your economic perspective, 
and I want to ask you a couple of questions rooted in that 
economic background that you have so that you can help the 
country understand the significance of why we have to have this 
conversation.
    So, first, I would like to ask you to respond to critics of 
this bill who claim that the U.S. has already paid reparations 
to African Americans through affirmative action.
    How would you respond to that?
    Ms. Malveaux. Thank you so much, Sister Congresswoman, for 
the question. Let me say that affirmative action--the primary 
beneficiaries of affirmative action actually were White women. 
And there is a significant research that shows that. Because 
White women were better poised to take advantage of the 
benefits that affirmative action. You had disadvantage and 
discrimination. The African-American community had disadvantage 
plus discrimination. White women simply had discrimination. So, 
when you go back and look at the data, you will not find that 
African Americans significantly benefited from affirmative 
action. It was a lot of talk and not a lot of action. So, when 
people talk about we have already paid reparations--I have 
heard people talk about the fact that White people died in the 
Civil War fighting on the side of the North. Well, the North 
was also a beneficiary of enslavement, quite frankly. My sister 
here who talked about her family has lifted that up. So, no, 
the reparations have not been paid. And the fact is that we are 
not as again--some folks may want checks. But what we are 
really talking about is closing that wealth gap and making 
people whole.
    Ms. Escobar. Thank you. And to that point about the wealth 
gap, you have remarked and pointed out that the income gap was 
actually shrinking until government played a role. The income 
gap for formerly enslaved individuals.
    Ms. Malveaux. The wealth gap. The wealth gap was shrinking 
until Jim Crow laws and profligate racism intruded in the ways 
that people were able to live their lives. The Tommy Moss story 
that I told a little bit of, the guy who opened the grocery 
store, Ida B. Wells' goddaughter's dad, opened a grocery store. 
He dared, he dared to compete with White people. And because he 
dared to compete with White people, he basically lost his life.
    Tulsa, Oklahoma, when the Governor of the Oklahoma actually 
appointed a commission to find out why the Wall Street massacre 
occurred, one of the newspapers came up with this conclusion: 
Too many n-words have too much money.
    That was the conclusion of an official government 
commission.
    And Black Wall Street was amazing. Dr. Olivia Hooker, who 
passed just last November, she was the oldest living survivor, 
and she was a friend. She said: We didn't have to leave the 
Black community for anything, except for banking. We had our 
own grocery stores, department stores. Black doctors built a 
library when White folks wouldn't build a library for Black 
people.
    That kind of economic thriving became a source of envy. 
Wilmington, North Carolina, brother man over here wants to talk 
ugly about Democrats. People change their ideologies. So the 
Democrats were the Devil once upon a time. There was a group 
called the Red Shirts which were the Klan. This had he were 
Democrats. However, the Republicans took that over. They became 
the Devil and--I am just saying--forgive me, Brother Chairman, 
I know you said I am not supposed to say that. Forgive me. But 
in any case, people do change ideology so all this throwing at 
Democrats, Democrats and Republicans have been racist. But in 
Wilmington, North Carolina, Republicans and Black people came 
together to form a fusion government. And White folks were so 
frightened that they took all the prominent Black men in that 
town, arrested them. The next morning gave them tickets to 
leave town. They had to leave their property, their livelihood, 
their families, everything. This is why we need reparations. 
White Democrats were so threatened by the notion of the fusion 
government that they basically burned people out. They 
documented 60 deaths, but there is a film--when I was talking 
and you told me I couldn't talk--there is a film called 
``Wilmington on Fire.'' I want everybody to watch this film, 
``Wilmington on Fire.'' It really does talk about what happened 
in Wilmington in 1898 when they just basically burned Black 
folks out. Twenty five percent of the Black people in 
Wilmington left. Nearly one-third of the Black businesses in 
Wilmington went out of business. It was really about economic 
envy. So, absent this economic envy and fear, Black folks, we 
didn't get the 40 acres and a mule, but we were still trying to 
do it. And then folks came in and said: Wait a minute. If we 
let them do their thing, where is our cheap labor going to come 
from?
    So that is what happened. Thank you for the question.
    Ms. Escobar. Thank you so much, Chairman. I am out of time.
    Mr. Cohen. Thank you.
    Last, but far from least, is the sponsor of H.R. 40, The 
Honorable Sheila Jackson Lee for her 5 minutes-plus.
    Ms. Jackson Lee. It is appropriate for me, Mr. Chairman, to 
thank you so very much and to dispel this audience from any 
suggestion and witnesses that we are here on a temporary pass, 
doing temporary work, that is going to be fleeting and never to 
be seen again.
    I want to thank Chairman Cohen, who comes from the heart of 
Memphis in Tennessee, who has walked in the life of a dual 
society.
    And I want to thank Chairman Nadler, who has indicated, as 
I did, supported H.R. 40 and the leadership of John Conyers.
    I want to thank all my colleagues on this panel for their 
diligence and outstanding questions. They are going to be in 
the forefront of educating, answering the questions, being a 
team, and I look forward to their work on this very powerful 
committee, the Judiciary Committee. What better place to have 
this hearing. And to those who are again trying to understand 
our process. You have to have a hearing, then there is 
something called a markup, then there is a vote in committee, 
and then there is the opportunity to go to the floor of the 
House of Representatives on to the Senate, which will be the 
other body as we call it, and the challenge that I will accept, 
and I hope that you will accept, and then the signature by a 
President of the United States of America.
    Let this day, June 19, 2019, be the marker for the 
commitment for each and every one of you who have come to 
support to say: On my watch, we will watch this bill pass and 
be signed by the President of the United States of America.
    I want to acknowledge Pastor Alan Patterson, who is from my 
hometown--and I know he wouldn't mind me saying--the inheritor 
of a great historic church in the historic Fifth Ward, Texas, 
that was a settling place for freed slaves, Mount Corinth 
Baptist Church. I am delighted that he is here, and I thank 
him. All the others I have thanked.
    Let me thank the witnesses. Mr. Chairman is very kind, but 
I will be diligent. Let me thank the witnesses who are here. 
Each and every one of them. Let me thank Mr. Coates, Mr. 
Glover, Ms. Browne, Mr. Hughes, Mr. Owens, the Right Reverend 
Eugene Taylor Sutton, and, as well, Dr. Julianne Malveaux, 
Professor Eric Miller.
    Let me get to my questions at this point. During the Red 
Summer of 1919, violence against African American communities 
erupted. Two years later, in the Tulsa race riots, 300 African 
Americans were killed and the entire Black community of 
Greenwood in Tulsa was destroyed.
    Another devastating racist attack took place in Rosewood, 
Florida, in 1923, Black-owned homes and businesses were 
systematically burned, at least eight people were killed. 
During--and despite African American service in World War II.
    I commend Mr. Coleman and I think Mr.--Mr. Owens and Mr. 
Hughes, excuse me: Read the bill.
    What the bill says is that this is a study to consider a 
national apology, which has been done, and a proposal for 
reparations for the institution of slavery. The institution of 
slavery has never gone away. It exists. It is subsequent to du 
jour and de facto, that is, that it is subject to the laws and 
to the current sphere of what has generated today. Racial and 
economic discrimination against African Americans and the 
impact of these forces on living African Americans that are to 
make recommendations to the Congress on appropriate remedies, 
and for other purposes. Why does the Congress have to do it? 
Because a Congress is the law-making body of the Federal 
Government, and it was the States and Federal Government that 
institutionalized laws that made slavery an act of the state. 
And it is not the courts, they will interpret, but we have to 
correct our error. That is why, in that historic moment, 
Republicans and I guess some Democrats came together in the 
Congress and supported the 13th Amendment, which then Democrats 
and Republicans or whatever they were called at that time 
throughout the States, then the States voted to accept that 
particular amendment. That is why the Congress must do its job.
    I welcome the disparate opinions, but I would argue to the 
gentleman from Columbia that you are I think, without the 
historical perspective and the pain, of being opposed at your 
very young age to affirmative action and reparations. So I 
would welcome a continuing debate. My door is open for you. I 
welcome you being here as a witness. But I think it is 
important to take note of this: One, my husband--excuse me, 
love him too--not my husband, love him too. My father was Ezra 
Clyde Jackson. He was the baby boy of a widowed mother with 
three brothers that went to World War II. A young man that 
graduated from high school for arts, New York City. He, out of 
high school, went to the cartoon industry in New York, it was 
thriving, what an amazing thing for a young Black boy. When the 
White men came back from World War II, my husband--my father 
was summarily fired for them to take his place. I was not born 
then, but I can tell you the life of that talented Black man 
was never the same until some 40 years later, when he was able 
to--talent never lost--able to be called back into that 
industry. Racism, it wasn't slavery; it wasn't 1892. It was in 
these prosperous '40s that you were talking about that my 
father, because of the color of his skin, his brilliant talent, 
the cartoonist artist that he was, was summarily fired.
    And so the question I have, Dr. Malveaux, while the White 
middle class were being buoyed by the New Deal, period of my 
father's life, African Americans were consistently excluded 
from its benefits. For example, the 1935 Social Security Act 
carved out jobs largely filled by African American workers, 
such as farm and domestic labor, from its old age and 
employment insurance. Federal housing programs also 
discriminated against African Americans by redlining Black 
neighborhoods to preclude them from receiving Federal Housing 
Administration, FHA. The GI Bill, which dedicated billions of 
dollars toward expanding opportunity for soldiers returning 
from war, also contributed to the widening gap between White 
and Black Americans. Southern congressional leaders made 
certain that the programs were controlled by local White 
official, resulting in Black veterans being denied housing and 
business loans.
    Dr. Malveaux, I want to get to your seatmate there, Mr. 
Miller. So I am going to you first, and I also want to get to 
Mr. Coates on these issues. And I thank all the other 
witnesses. Could you comment on this impact, on this continuing 
impact when we didn't benefit from that?
    Ms. Malveaux. Thank you, again, Congresswoman, both for the 
hearing and for the question. The continuing impact is it shows 
up in the wealth gap. In addition to the entirety of the way 
that we redline Black communities through the Federal Housing 
Administration, redline communities so that people could not 
get housing loans, even when they qualified for them. This was 
government policy. This is why Congress must do this. Congress 
did the Devil, and now Congress has to do the right thing. It 
is quite simple.
    I am so happy that you mentioned the GI Bill for a couple 
of reasons. Number one, as you said, the State authorities 
decided who got benefits. In the State of Mississippi, fewer 
than 1,000, the number is 600 or 700, but I will just round up, 
fewer than 1,000 Black men were able to go to college on the GI 
Bill in Mississippi because when they went to get their GI 
benefits, the GI boys said: Well, you could go to barber 
school, or you could go to trade school. But these were 
brothers who were qualified to go to college, should have had 
that opportunity, would have had generational differences in 
the way they lived had they done that. So Congress has 
indifferently, essentially sidelined Black people from the 
opportunities that they created for White people. It is plain 
and simple. Sideline us from those opportunities, and that is 
why it is time now to talk about how to fix that.
    My brother who has done the work on Tulsa can talk so much 
more about that. But let us simply say the commission that is 
created must go through line by line and look at all this--and 
detail it. I don't like to think--like I said, I am not 
Kumbaya.
    Ms. Jackson Lee. Thank you.
    Ms. Malveaux. I don't like to think White people are evil. 
I think White people are ignorant. I think White people do not 
know what the history is. And I commend you all to look at the 
history and the work that you have done in the past and then 
challenge you to do the right thing.
    Ms. Jackson Lee. Thank you.
    Mr. Coates, may I bring you to the 21st century and recent 
article in The New York Times that basically says----
    Mr. Cohen. We have a call for votes; make it real quick.
    Ms. Jackson Lee. Thank you. This is Kansas City: Downtown 
is booming. But in the shadows of the city's thriving business 
and entertainment district are languishing East Side 
neighborhoods pocked with boarded-up homes and overgrown, 
trash-strewn lots. The shiny cafes and storefronts are almost 
nonexistent there, and residents like LaTonya Bowman feel 
forgotten. ``I love downtown, and I would love to see it grow 
too, but you have got to be real,'' says Ms. Bowman, who lives 
in the predominantly Black East Side. ``It is like neglect. We 
get the leftovers.''
    Can you just bring that all together for us in what you 
have ascertained about the commission, racism, and where we are 
today.
    Mr. Coates. Sure. I think the consistent point from the 
comments that you just read--the article you just read from--
stretching all the way back to the period of enslavement in 
this country is the idea of theft. Enslavement is threat. For 
250 years, Black people had the fruits of their labor stolen 
from them. We don't often think about Jim Crow and the era of 
segregation as theft, but it is theft too. If I agree to pay 
taxes, if I agree to fealty to a government, and you give me a 
different level of resources out of that tax pool, if you are 
giving me a different level of protection, you have effectively 
stolen from me. If you deny my ability to vote and to 
participate in the political process, to decide how those 
resources are used, you have effectively stolen from me. So it 
makes a kind of sense that after a period that begins in 1619 
of theft, ending conservatively in 1968, I think I will get an 
argument on that, but conservatively in 1968 that if you steal 
from a group of people over that long period of a period of 
time, you will have the very wealth gap that Dr. Malveaux--
results from. I think it is very, very important to bring that 
into the conversation because this wasn't a passive 
discrimination. This was appropriating resources from one group 
and giving them to the other through the auspices of the state.
    Ms. Jackson Lee. Thank you.
    Thank you, Mr. Chairman. I am very grateful to you to yield 
back. And I feel the power in this room.
    And I ask my colleague Mr. Johnson: Let us work together. 
Let's get this done. It is long overdue. It is deserving, and 
it is the right thing to do.
    Mr. Chairman, I yield back.
    Mr. Cohen. Thank you, Ms. Lee. And of course, I want to 
thank all of our witnesses. This concludes our hearing. I want 
to thank our witnesses. This has been a great panel. This is 
what, magnified times 10, 20, 50, of a study would be like 
because this panel would be heard and heard and heard, and 
people would get the story of what has happened in America and 
different perspectives on how to deal with it.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional material for the record.
    I want to thank my ranking member and all of my members. 
Our attendance was excellent. If anybody sees Jon Stewart, tell 
him everybody was here and very attentive.
    And, with that, the hearing is adjourned.
    [Whereupon, at 1:24 p.m., the subcommittee was adjourned.]
      

                                APPENDIX

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
</pre></body></html>
